<html>
<title> - A DECADE AFTER 9/11 COULD AMERICAN FLIGHT SCHOOLS STILL UNKNOWINGLY BE TRAINING TERRORISTS?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
A DECADE AFTER 9/11 COULD AMERICAN FLIGHT SCHOOLS STILL UNKNOWINGLY BE 

                          TRAINING TERRORISTS?
=======================================================================




                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2012

                               __________

                           Serial No. 112-106

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
79-848                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Ron Barber, Arizona
Robert L. Turner, New York           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security:
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................    33
The Honorable Danny K. Davis, a Representative in Congress From 
  the State of Illinois..........................................     2

                               Witnesses

Mr. Steven M. Lord, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Kerwin Wilson, General Manager for General Aviation, Office 
  of Security Policy and Industry Engagement, Transportation 
  Security Administration:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. John P. Woods, Assistant Director, National Security 
  Investigations, Immigration and Customs Enforcement:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Jens C. Hennig, Vice President of Operations, General 
  Aviation Manufacturers Association:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Douglas Carr, President and Chief Executive Officer, National 
  Business Aviation Association:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                                Appendix

Questions for Kerwin Wilson From Chairman Mike Rogers............    49
Questions for John P. Woods From Chairman Mike Rogers............    50


A DECADE AFTER 9/11 COULD AMERICAN FLIGHT SCHOOLS STILL UNKNOWINGLY BE 
                          TRAINING TERRORISTS?

                              ----------                              


                        Wednesday, July 18, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Lungren, Walberg, 
Cravaack, Walsh, Turner, Thompson, and Davis.
    Mr. Rogers. The Committee on Homeland Security, 
Subcommittee on Transportation Security will come to order. The 
subcommittee is meeting today to examine GAO's recent findings 
about flaws that exist in the process forbidding foreign 
nationals taking flight training.
    I would like to welcome all of our witnesses for being 
here, and everyone in attendance. I know the witnesses have a 
lot of things they could be doing. Preparing for hearings, not 
one of their favorite. But it really is helpful for us to have 
these kind of hearings to talk about these important issues. So 
I appreciate your time and testimony.
    Today's hearing is a sobering reminder that we cannot 
afford to let down our guard, or become complacent about 
security. It is completely unacceptable that a decade after 9/
11, GAO has uncovered weaknesses in our security controls that 
were supposed to be fixed a decade ago.
    GAO's findings are clear, and those are, not all foreign 
nationals who train to fly airplanes inside the United States 
have been properly vetted. The Department of Homeland Security 
does have a program to make sure foreign nationals are vetted, 
but the program has significant weaknesses.
    First, let me say this is extremely disturbing. According 
to the GAO, the main cause of the problem is that TSA needs 
stronger internal controls, and better coordination with ICE.
    Here is what amazes me. We have TWIC program that charges 
$130 to every American trucker for a security background check 
to drive to a port. We have cancer patients, Iraq War veterans, 
and Nobel Prize winners, all forced to undergo rigorous 
security checks before getting on an airplane.
    At the same time, 10 years after 9/11, there are foreign 
nationals in the United States training to fly, just like 
Mohammed Atta and the other 9/11 hijackers did. Not all of them 
are necessarily getting a security background check.
    Is that risk-based security? I don't think so. Two years 
ago at a Boston-area flight school, ICE discovered 25 illegal 
immigrants were enrolled and taking lessons.
    That is not the worst of it. The owner of the flight school 
was also here illegally. But surprisingly, individuals had 
been--but surprisingly, the individuals had been approved by 
TSA to take flight lessons, despite their illegal immigration 
status.
    So the same department that gave 25 foreign nationals a 
green light to take flight lessons ended up investigating those 
25 for being here illegally. Some improvements were made after 
the Boston incident, but there are still big gaps in the GAO 
report.
    According to GAO, some foreign nationals who should not get 
approved do, as the Boston case I just mentioned proves. Some 
circumvent the vetting process all together. If foreign 
nationals don't go through the program, TSA and ICE don't know 
who is flying.
    I have no doubt that the majority of people in DHS, and 
those who operate flight schools in the United States, are 
dedicated to security, and are doing the best that they can. 
But the fact is, we have got to do better. I expect the 
Department of Homeland Security to provide a concrete time line 
today for implementing GAO's recommendations. The Department 
needs to be smarter about security. I believe this is just one 
of many examples that we need to deal with.
    I now recognize Mr. Davis, who is standing in for the 
Ranking Member, who is not available today. I recognize him for 
5 minutes to make his opening statement.
    Mr. Davis. Thank you very much, Mr. Chairman. I would like 
to take this opportunity to indicate, as you have already done 
so, that Congresswoman Jackson Lee will not be here today. She 
is attending the funeral of a friend of hers, Federal 
Protective Service Officer, Inspector Phillip Preta.
    Inspector Preta started his career as security officer, and 
served as the assistant chief of police services for the 
Veterans Administration, Central Texas Police Division. In 
2008, Inspector Preta joined the Federal Protective Service at 
DHS, and maintained an active role in a number of associations 
empowering law enforcement personnel.
    In her absence, I will now read Congresswoman Jackson Lee's 
opening statement, and ask that it be inserted into the record.
    ``I want to first of all thank the witnesses for being here 
today. General aviation accounts for about 54 percent of all 
civil aviation activity in the United States. According to GAO, 
general aviation is the source of 1.3 million jobs, and 
contributes approximately $100 billion to the U.S. economy.
    ``Because G.A. includes such a diverse array of operations, 
general aviation encompasses a wide spectrum of aircraft 
personnel and pilots. Today, GAO is releasing a report that 
outlines TSA's efforts to address G.A. security.
    ``I look forward to discussing GAO's findings today, and 
identifying solutions to complex questions. Today's hearing, 
however, appears to focus only on one aspect of general 
aviation, and that is the vetting of foreign nationals seeking 
to enroll in flight training school.
    ``I would be remiss if I did not take this opportunity to 
note that the threat to G.A. expands beyond the vetting of 
foreign nationals enrolled in flight training programs.
    ``A most recent example of this took place on February 
2010, when a disgruntled individual flew his private one-engine 
plane into an IRS building in Austin, Texas. This incident 
killed two people, and hurt many innocent people who were 
caught up in the fire after the crash.
    ``Today we will hear from TSA and industry about increased 
collaboration between TSA and industry, and some of the 
concrete examples that point to enhanced security across the 
G.A. community because of these efforts. I think today's 
hearing will lay important markers about general aviation 
security, and how DHS can more efficiently harness its 
resources, particularly that of information sharing, and access 
to accurate information databases.
    ``Today's hearing will also afford us the opportunity to 
learn more extensively about the steps taken by TSA and ICE to 
address the vulnerabilities identified by the GAO. Since GAO's 
findings were released, TSA and ICE have embarked on key 
problematic changes that enhance G.A. security.
    ``First, TSA and ICE have formalized their cooperation. 
Second, TSA and ICE are in the midst of enhancing an extensive 
vetting project of all foreign nationals enrolled in flight 
schools, pilots and crew members, and personnel at repair 
stations.
    ``And finally, ICE and TSA have improved information-
sharing efforts that impact the mission and operations of both 
agencies in GSA. There is no doubt that GAO's report provided 
clarity to TSA and Congress on the vulnerabilities present in 
general aviation.
    ``However, we cannot ignore that there is more to G.A. 
security than just vetting foreign nationals. The department's 
approach must continue to evolve to embrace a comprehensive 
analysis of risk.
    ``I thank you, Mr. Chairman, and yield back to look forward 
to hearing the witnesses.''
    [The statement of Ranking Member Jackson Lee follows:]
             Statement of Ranking Member Sheila Jackson Lee
                             July 18, 2012
    General Aviation [GA] accounts for about 54% of all civil aviation 
activity in the United States. According to GAO, general aviation is 
the source of 1.3 million jobs and contributes approximately $100 
billion to the U.S. economy. Because GA includes such a diverse array 
of operations, general aviation encompasses a wide spectrum of 
aircraft, personnel, and pilots.
    Today, GAO is releasing a report that outlines TSA's efforts to 
address GA security. I look forward to discussing GAO's findings today 
and identifying solutions to complex questions.
    Today's hearing, however, appears to focus only on one aspect of 
general aviation: The vetting of foreign nationals seeking to enroll in 
flight training school. I would be remiss if I did not take this 
opportunity note that the threat to GA expands beyond the vetting of 
foreign nationals enrolled in flight training programs.
    A most recent example of this took place on February 2010, when a 
disgruntled individual flew his private one-engine plane into an IRS 
building in Austin, Texas. This incident killed two people and hurt 
many innocent people who were caught up in the fire after the crash. 
General aviation encompasses aircraft of virtually every size that 
perform a wide variety of missions, from crop-dusting to large 
passenger charters.
    Further, international inbound general aviation accounts for about 
400 flights per day. Most--about 75%--are from Canada and Mexico, and 
the remainder are from a variety of countries.
    Today, we will hear from TSA--and industry--about increased 
collaboration between TSA and industry and some of the concrete 
examples that point to enhanced security across the GA community 
because of these efforts.
    I think today's hearing will lay important markers about general 
aviation security and how DHS can more efficiently harness its 
resources--particularly that of information sharing and access to 
accurate information in databases.
    Today's hearing will also afford us the opportunity to learn more 
extensively about the steps taken by TSA and ICE to address the 
vulnerabilities identified by GAO. Since GAO's findings were released, 
TSA and ICE have embarked on key programmatic changes that enhance GA 
security: First, TSA and ICE have formalized their cooperation. Second, 
TSA and ICE are in the midst of enhancing an extensive vetting project 
of all foreign nationals enrolled in flight schools, pilots and crew 
members, and personnel at repair stations. Finally, ICE and TSA have 
improved information-sharing efforts that impact the mission and 
operations of both agencies in GA.
    There is no doubt that GAO's report provided clarity to TSA and 
Congress on the vulnerabilities present in general aviation. However, 
we cannot ignore that there is more to GA security than just vetting 
foreign nationals. The Department's approach must continue to evolve to 
embrace a comprehensive analysis of risk.

    Mr. Rogers. I thank the gentleman. The Chairman advises 
other Members that their opening statements may be submitted to 
the record.
    We are pleased to have five distinguished witnesses before 
us today on this important topic. We appreciate our Government 
witnesses agreeing to testify alongside non-Government 
representatives. I recognize this is deviation from standard 
practice, but I do appreciate it. Also, let me remind the 
witnesses their entire written statements will appear in the 
record.
    Our first witness today is Mr. Steve Lord. Mr. Lord is GAO 
executive responsible for directing numerous engagements on 
aviation and service transportation issues, and regularly 
testifies before Congress.
    Mr. Lord, as always, we appreciate your appearing before 
the committee, and your important work that your office does. 
The Chairman now recognizes Mr. Lord for 5 minutes to summarize 
his opening statement.

 STATEMENT OF STEVEN M. LORD, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you, Mr. Chairman, Representative Davis, 
other Members of the committee. I am really excited to be here 
today to discuss the findings of our general aviation security 
report, which we are releasing today to coincide with the 
hearing.
    This is obviously an important issue. Not only do you have 
over 200,000 general aviation aircraft operating more than 
19,000 facilities in this country, but as the Chairman 
remarked, 9/11 hijackers learned to fly at U.S. flight schools.
    Today, I would like to discuss two issues in parallel with 
the issues in our report. First, I would like to describe some 
steps TSA has taken in conjunction with industry to enhance 
general aviation security. No. 2, I would also like to discuss 
the TSA vetting process to ensure that foreign nationals coming 
to this country for flight school training are properly vetted 
before completing the training, and moving on to get their FAA 
airman certificate, i.e., pilots' licenses.
    Regarding the first point, we found that TSA has taken a 
number of positive steps to work with industry to develop 
voluntary guidelines to help enhance security at general 
aviation facilities. They also indicated that an updated 
version of these guidelines will be issued later this year. In 
2008, TSA also developed a proposed rule that would have 
imposed new security requirements on aircraft weighing over 
12,500 pounds, thereby subjecting them to increased security 
requirements and inspections.
    However, to their credit TSA agreed to revise the proposal 
after it encountered significant industry opposition and now 
plans on issuing a new rule, either later this year or early 
next year. Industry officials we interviewed as part of this 
engagement generally gave TSA good marks for conducting 
outreach with them.
    The second point I would like to discuss today is we found 
several weaknesses in TSA's process for conducting security 
threat assessments, that is, background checks on foreign 
nationals signing up for flight training, and in DHS' process 
for identifying students who may be in the country illegally.
    Under current program requirements, foreign nationals 
seeking flight training must undergo a TSA security threat 
assessment before flight training. To test whether this 
actually occurs in practice, we downloaded the FAA database of 
everybody who has a pilot's license and compared it to the TSA 
database, which is maintained separately, of everyone who has 
completed a background check. So in a perfect world, the two 
databases should match.
    But we were surprised to find that some--the exact number 
is designated sensitive security information, so I can't tell 
you the exact number--but some of the foreign nationals holding 
pilots licenses were not in the TSA's database, indicating that 
some foreign nationals had not been vetted before receiving 
flight training, and ultimately receiving pilot's licenses.
    Thus, in our report we are recommending that TSA 
strengthens its controls of the vetting process to ensure this 
doesn't take place again. Although DHS agreed with our 
recommendation and indicated they are moving out on this, we 
still have a lot of questions about how this is actually going 
to occur in practice, as some of the steps are preliminary in 
nature.
    Another weakness we found is that a foreign national can be 
approved for flight school training after entering the country 
illegally. For example, as the Chairman noted, 25 foreign 
nationals who were investigated by ICE at a Boston area flight 
school in March 2010 had been approved through the TSA process 
to begin flight school training. However, eight of these 
individuals were in so-called ``entry without inspection 
status,'' EWIS, meaning that they had entered the country 
illegally.
    Three of them had obtained pilots licenses; 17 of them, 17 
of the 25 foreign nationals were in so-called overstay status, 
meaning they had overstayed their authorized period of 
admission into the United States.
    This concerned us, because as part of the vetting process, 
you are supposed to have an immigrations check. We assumed if 
the immigrations check was performed properly this wouldn't 
occur. Although DHS agreed to take some corrective action to 
address this issue, which is the good news, we still have a lot 
of questions about how it is going to work out in practice.
    Again, a lot of this is preliminary in nature. In fact, one 
of the agreements--arrangements agreed to--we were just 
notified of last night, which I was a little surprised about, 
given that we have spent 15 months looking at this.
    Anyway, in closing we have identified a number of 
weaknesses in TSA's and DHS's process for vetting foreign 
nationals before they begin flight school training we think 
deserves immediate departmental attention. Typically, we give 
agencies several months to implement our recs, but I agree with 
you, Mr. Chairman, given the significance we think they should 
take immediate action to address them.
    The good news is they have already announced a series of 
measures to do that.
    In closing, I look forward to working with this committee 
to conduct additional oversight on this issue.
    Thank you very much for inviting me to appear today.
    [The prepared statement of Mr. Lord follows:]
                 Prepared Statement of Stephen M. Lord
                             July 18, 2012
 general aviation security.--tsa's process for ensuring foreign flight 
          students do not pose a security risk has weaknesses
                              gao-12-900t
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
committee: I am pleased to be here to discuss the findings of our 
report assessing the Transportation Security Administration's (TSA) 
efforts to address general aviation security.\1\ Altogether, more than 
200,000 general aviation aircraft--from small aircraft with minimal 
load capacities to business jets and larger aircraft such as privately 
operated Boeing 747s--operate at more than 19,000 facilities.\2\ U.S. 
Government threat assessments have discussed plans by terrorists to use 
general aviation aircraft to conduct attacks. Further, analysis 
conducted on behalf of TSA has indicated that larger general aviation 
aircraft, such as midsized and larger jets often used for business 
purposes, may be able to cause significant damage to buildings and 
other structures. Also, the terrorists responsible for the September 
11, 2001, attacks learned to fly at flight schools in Florida, Arizona, 
and Minnesota. TSA, within the Department of Homeland Security (DHS), 
has responsibilities for general aviation security, and developed the 
Alien Flight Student Program (AFSP) to help determine whether foreign 
students enrolling at flight schools pose a security threat.
---------------------------------------------------------------------------
    \1\ GAO, General Aviation Security: Weaknesses Exist in TSA's 
Process for Ensuring Foreign Flight Students Do Not Pose a Security 
Threat, GAO-12-875 (Washington, DC: July 18, 2012).
    \2\ General aviation includes nonscheduled aircraft operations such 
as air medical-ambulance, corporate aviation, and privately-owned 
aircraft--generally, aircraft not available to the general public for 
transport.
---------------------------------------------------------------------------
    My testimony this morning will address the key findings from the 
general aviation security report that we are issuing today.\3\ 
Specifically, my statement will address: (1) TSA and general aviation 
industry actions to enhance security and TSA efforts to obtain 
information on these actions, and (2) TSA efforts to ensure foreign 
flight students do not pose a security threat.
---------------------------------------------------------------------------
    \3\ GAO-12-875.
---------------------------------------------------------------------------
    For the report, we reviewed applicable laws, regulations, and 
policies, as well as documentation provided by TSA on its oversight of 
general aviation security, including procedures for conducting security 
threat assessments of AFSP candidates. In addition, we interviewed 22 
general aviation operators--including 5 private operators, 7 private 
charter companies that also perform as private operators, and 10 flight 
schools--located at eight selected airports to observe and discuss 
security initiatives implemented. We selected these airports based on 
their geographic dispersion, types of general aviation operations 
present, and size of aircraft based at each airport. We also 
interviewed representatives from six aviation industry associations. 
Further, we reviewed TSA analysis comparing Federal Aviation 
Administration (FAA) data from January 2006 to September 2011 on 
foreign nationals applying for airman certificates (pilot's licenses) 
with AFSP data. We conducted this work in accordance with generally 
accepted Government auditing standards. More detailed information on 
the scope and methodology can be found in our published report.
    tsa and aircraft operators have taken actions to secure general 
   aviation; tsa obtains information through outreach and inspections
    TSA and aircraft operators have taken several important actions to 
enhance general aviation security, and TSA is working with aviation 
industry stakeholders to develop new security guidelines and 
regulations. Among other measures, TSA worked with members of the 
General Aviation Working Group of its Aviation Security Advisory 
Committee in 2003 and 2004 to develop recommended guidelines for 
general aviation airport security, and TSA expects the group to issue 
updated guidelines later this year.\4\ In addition, pursuant to the 
Aviation and Transportation Security Act, TSA established and oversees 
implementation of a security program in which aircraft weighing more 
than 12,500 pounds in scheduled or charter service that carry 
passengers or cargo or both, and that do not fall under another 
security program, must implement a ``Twelve-Five'' standard security 
program.\5\ Aircraft operators implementing a Twelve-Five security 
program must include, among other elements, procedures regarding bomb 
or air piracy threats. TSA obtains information directly from aircraft 
operators that fall under Twelve-Five through its review and approval 
of the security programs developed by these operators and through 
periodic inspections to determine the extent to which operators comply 
with their security programs. TSA inspectors are responsible for 
conducting these periodic inspections and determining whether operators 
are in compliance with program requirements or whether a violation has 
occurred. Independent of regulatory requirements, operators of private 
general aviation aircraft not covered under existing security programs 
we spoke to indicated that they implement a variety of security 
measures to enhance security for their aircraft. For example, 7 of the 
12 operators that perform as private operators that we interviewed 
stated that they park their aircraft in hangars to protect them from 
possible misuse or vandalism.
---------------------------------------------------------------------------
    \4\ Originally established in 1988, following the 1988 Pan American 
World Airways Flight 103 bombing over Lockerbie, Scotland, the Aviation 
Security Advisory Committee was developed to allow all segments of the 
population to have input into aviation security considerations. The 
committee's charter expired in 2010, but was subsequently reestablished 
by TSA in November 2011.
    \5\ See 49 C.F.R.  1544.101(d). See also Pub. L. No. 107-71,  
132(a), 115 Stat. 597, 635-36 (2001).
---------------------------------------------------------------------------
    TSA has also conducted outreach to the general aviation community 
to establish a cooperative relationship with general aviation 
stakeholders. TSA officials we spoke to stated that the agency does not 
have a systematic mechanism to collect information on the security 
measures implemented by other general aviation aircraft operators that 
do not fall under TSA security programs. Rather, the agency has 
developed informal mechanisms for obtaining information on security 
measures enacted by these operators, such as outreach conducted by TSA 
inspectors, and has contacted general aviation industry associations to 
obtain this information.
    In 2008, TSA developed a proposed rule that would have imposed 
security requirements on all aircraft over 12,500 pounds, including 
those not currently covered under existing security programs, thereby 
subjecting them to TSA security requirements and inspections. However, 
industry associations and others expressed concerns about the extent to 
which TSA obtained industry views and information in the proposed 
rule's development. They also questioned the security benefit of the 
proposed rule and stated that it could negatively affect the aviation 
industry given its broad scope. In response to these concerns, TSA 
officials said the agency is revising the proposed rule and plans to 
issue a supplemental notice of proposed rulemaking in late 2012 or 
early 2013. Officials from all six industry associations we spoke with 
stated that TSA has reached out to gather industry's input, and three 
of the six associations stated that TSA has improved its efforts to 
gather input since the 2008 notice of proposed rulemaking.
     weaknesses exist in processes for conducting security threat 
    assessments and for identifying potential immigration violations
    TSA vets foreign flight student applicants through AFSP, but 
weaknesses exist in the vetting process and in DHS's process for 
identifying flight students who may be in the country illegally. In our 
July 2012 report, we recommended two actions that DHS and TSA could 
take to address these concerns.
    Under AFSP, foreign nationals seeking flight training in the United 
States must receive a TSA security threat assessment before receiving 
flight training to determine whether each applicant is a security 
threat to the United States. According to TSA regulations, an 
individual poses a security threat when the individual is suspected of 
posing, or is known to pose, a threat to transportation or National 
security, a threat of air piracy or terrorism, a threat to airline or 
passenger security, or a threat to civil aviation security.\6\ 
According to TSA officials, when a foreign national applies to AFSP to 
obtain flight training, TSA uses information submitted by the foreign 
national--such as name, date of birth, and passport information--to 
conduct a criminal history records check, a review of the Terrorist 
Screening Database, and a review of the Department of Homeland 
Security's TECS system.\7\
---------------------------------------------------------------------------
    \6\ See 49 C.F.R.  1540.115(c).
    \7\ Information in the Terrorist Screening Center's consolidated 
database of known or suspected terrorists--the Terrorist Screening 
Database--is used for security-related screening of foreign nationals 
applying to AFSP. TECS, an updated and modified version of the former 
Treasury Enforcement Communications System, is an information-sharing 
platform that allows users to access different databases relevant to 
the antiterrorism and law enforcement mission of numerous other Federal 
agencies.
---------------------------------------------------------------------------
    According to TSA officials, most foreign nationals taking training 
from a U.S. flight training provider will apply for an FAA airman 
certificate (pilot's license) once their flight training is completed. 
Information obtained by FAA as part of this application for 
certification is placed in the airmen registry. From January 2006 
through September 2011, 25,599 foreign nationals had applied for FAA 
airman certificates, indicating they had completed flight training. We 
provided data from FAA's airmen registry to TSA so that the agency 
could conduct a matching process to determine whether the foreign 
nationals in the FAA airmen registry were in TSA's AFSP database and 
the extent to which they had been successfully vetted through the AFSP 
database. The results of our review of TSA's analyses are as follows:
  <bullet> TSA's analysis indicated that some of the 25,599 foreign 
        nationals in the FAA airmen registry were not in the TSA AFSP 
        database, indicating that these individuals had not applied to 
        the AFSP or been vetted by TSA before taking flight training 
        and receiving an FAA airman certificate.\8\
---------------------------------------------------------------------------
    \8\ For its analysis, TSA used a software tool that performs 
``fuzzy matching'' of data such as names, dates, or telephone numbers. 
The specific number is deemed sensitive security information and is 
therefore not included in this report.
---------------------------------------------------------------------------
  <bullet> TSA's analysis indicated that an additional number of the 
        25,599 foreign nationals in the FAA airmen registry were also 
        in the TSA AFSP database but had not been successfully vetted, 
        meaning that they had received an FAA airman certificate but 
        had not been successfully vetted or received permission from 
        TSA to begin flight training.
    Since 2009, TSA has continuously vetted all new and existing FAA 
airman certificate holders against the Terrorist Screening Database, 
which would include the foreign nationals identified through TSA's 
analysis. However, this vetting does not occur until after the foreign 
national has obtained flight training. Thus, foreign nationals 
obtaining flight training with the intent to do harm, such as three of 
the pilots and leaders of the September 11 terrorist attacks, could 
have already obtained the training needed to operate an aircraft before 
they received any type of vetting. In our report, we recommended that 
TSA take steps to identify any instances where foreign nationals 
receive FAA airman certificates without first undergoing a TSA security 
threat assessment and examine those instances so that TSA can identify 
the reasons for these occurrences and strengthen controls to prevent 
future occurrences. DHS concurred with this recommendation and stated 
that TSA signed a memorandum of understanding with FAA in February 2012 
to exchange data. The memorandum, which FAA signed in March 2012, 
outlines a process for FAA to provide certain data from its airmen 
registry on a monthly basis and authorizes TSA to use the data to 
ensure flight training providers are providing TSA with information to 
conduct the appropriate background check prior to flight instruction. 
This is an important first step toward addressing our recommendation, 
provided that TSA uses the data to identify instances where foreign 
nationals receive FAA airman certificates without first undergoing a 
TSA security threat assessment, identifies reasons for these 
occurrences, and strengthens controls to prevent future occurrences, as 
we recommended.
    Another weakness that we identified is that AFSP is not designed to 
determine whether a foreign flight student entered the country legally; 
thus, a foreign national can be approved for training through AFSP 
after entering the country illegally. In March 2010, U.S. Immigration 
and Customs Enforcement (ICE) investigated a Boston-area flight school 
after local police stopped the flight school owner for a traffic 
violation and discovered that he was in the country illegally. In 
response to this incident, ICE launched a broader investigation of the 
students enrolled at the flight school. ICE found that 25 of the 
foreign nationals at this flight school had applied to AFSP and had 
been approved by TSA to begin flight training after their security 
threat assessment had been completed; however, the ICE investigation 
and our subsequent inquiries revealed the following issues, among other 
things:
  <bullet> Eight of the 25 foreign nationals who received approval by 
        TSA to begin flight training were in ``entry without 
        inspection'' status, meaning they had entered the country 
        illegally. Three of these had obtained FAA airman certificates: 
        2 held FAA private pilot certificates and 1 held an FAA 
        commercial pilot certificate.
  <bullet> Seventeen of the 25 foreign nationals who received approval 
        by TSA to begin flight training were in ``overstay'' status, 
        meaning they had overstayed their authorized period of 
        admission into the United States.
  <bullet> In addition, the flight school owner held two FAA airman 
        certificates. Specifically, he was a certified Airline 
        Transport Pilot (cargo pilot) and a Certified Flight 
        Instructor. However, he had never received a TSA security 
        threat assessment or been approved by TSA to obtain flight 
        training. He had registered with TSA as a flight training 
        provider under AFSP.\9\
---------------------------------------------------------------------------
    \9\ We recently reported on issues related to ICE's oversight of 
the Student and Exchange Visitor Program (SEVP). Specifically, ICE 
certifies schools to accept foreign nationals on student visas in 
academic and vocational programs, including those that provide flight 
training. SEVP-certified flight schools are a relatively small 
percentage of schools Nation-wide that offer flight training to foreign 
nationals. See GAO, Student and Exchange Visitor Program: DHS Needs to 
Assess Security Risks and Strengthen Oversight of Schools, GAO-12-572 
(Washington, DC: June 18, 2012).
---------------------------------------------------------------------------
    As a result, TSA and ICE jointly worked on a pilot program for 
vetting names of foreign students against immigration databases, but 
have not specified desired outcomes and time frames, or assigned 
individuals with responsibility for fully instituting the program. 
Having a road map, with steps and time frames, and assigning 
individuals the responsibility for fully instituting a pilot program 
could help TSA and ICE better identify and prevent potential risk. We 
recommended that TSA and ICE develop a plan, with time frames, and 
assign individuals with responsibility and accountability for assessing 
the results of their pilot program to check TSA AFSP data against 
information DHS has on applicants' admissibility status to help detect 
and identify violations, such as overstays and entries without 
inspection, by foreign flight students, and institute that pilot 
program if it is found to be effective. DHS concurred with this 
recommendation and stated that TSA will prepare a plan by December 2012 
to assess the results of the pilot program with ICE to determine the 
lawful status of the active AFSP population. The plan is to include 
specific details on time frames and accountability and recommendations 
for next steps. We believe that these are positive actions that could 
help TSA address the weaknesses identified in our report and we will 
continue to work with TSA to monitor progress on the proposed solutions 
as the agency proceeds.
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
committee, this concludes my prepared statement. I look forward to 
responding to any questions that you may have.

    Mr. Rogers. That may be good news. The bad news is it took 
them 10 years to do it.
    Thank you, Mr. Lord.
    Our next witness is Mr. Kerwin Wilson. Mr. Wilson serves as 
general manager of general aviation at TSA. He assumed that 
position in July. Prior to that, he served as assistant general 
manager of general aviation at TSA. A veteran of the U.S. Air 
Force as an officer, Mr. Wilson has over 20 years experience in 
air traffic control and airport management, with a background 
in security in formulating aviation policy and procedures with 
various government agencies and foreign countries.
    Chairman now recognizes Mr. Wilson for 5 minutes to 
summarize his testimony.

    STATEMENT OF KERWIN WILSON, GENERAL MANAGER FOR GENERAL 
 AVIATION, OFFICE OF SECURITY POLICY AND INDUSTRY ENGAGEMENT, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Wilson. Good morning, Chairman Mr. Rogers, Mr. Davis, 
and distinguished Members of the subcommittee. I want to thank 
you for the opportunity to testify today concerning the TSA's 
alien flight student program.
    TSA employs risk-based intelligence-driven operations to 
prevent terrorist acts and to reduce the vulnerability of the 
Nation's transportation system to terrorism. Our goal is to 
maximize transportation security to stay ahead of evolving 
terrorist threats while protecting privacy and facilitating the 
flow of air commerce.
    TSA security measures create a multi-layered system of 
transportation security that mitigates risk. We continue to 
evolve our security approach by examining the procedures and 
technologies we use, how specific security procedures are 
carried out, and how vetting is conducted. The mission of the 
of AFSP is to ensure that foreign students seeking new or 
recurrent training at flight schools in the United States do 
not pose a threat to aviation or National security.
    In response to the 9/11 terrorist attacks in the United 
States in which terrorists trained at U.S. flight schools, 
Congress, in the Aviation and Transportation Security Act in 
2001, and later in the FAA Reauthorization Act of 2003, 
directed TSA to determine whether an alien, as defined under 
the Immigration and Nationality Act, presented a risk to 
aviation or National security before that individual could 
train in an aircraft having a maximum certificated takeoff 
weight of 12,500 pounds or more.
    Subsequently, TSA issued an interim final rule to implement 
these statutory requirements. Under the program, non-U.S. 
citizens seeking to undergo FAA-certificated flight training 
are required to submit a background check that includes a name-
based terrorism check, a name-based immigration check, a 
fingerprint-based criminal history records check, submittal of 
security documents including passport copies and specific 
information about their desired training events.
    The program also requires their flight training provider to 
send a digital picture of the student within 5 calendar days 
after the student initiates training. Flight training providers 
regulated under this program are prohibited from providing 
flight training to aliens until a security threat assessment 
has been successfully conducted by TSA. These flight training 
providers offer four different categories of training for 
students applying for the AFSP. Detailed definitions of each of 
those categories are within my written testimony.
    TSA defines general aviation as all aviation operations 
other than regularly scheduled passenger flights, cargo 
operations, and military aviation. The general aviation 
community consists of approximately 19,000 airports, 200,000 
aircraft, 630,000 certificated pilots, and 7,000 flight 
training providers.
    These flight training providers are an important business 
in the aviation industry, and continue to work with properly 
vetted aliens as an economic benefit to the United States. In 
general, the general aviation community accounts for roughly 
1.2 million U.S. jobs and contributes $150 billion to the U.S. 
economy each year.
    From March 2011 to June 2012, the GAO assessed TSA's and 
the general aviation industry's actions to strengthen security, 
as well as efforts to ensure foreign flight students do not 
pose a security threat. TSA concurred with all four of GAO's 
recommendations. In fact, TSA self-identified three of the four 
recommendations that GAO pointed out.
    Because portions of the GAO report contain sensitive 
security information, I cannot fully comment on many of the 
recommendations today. To ensure that the subcommittee is kept 
informed of TSA's actions to address these recommendations as 
noted in the GAO report, the agency did provide the Chairman 
and the Ranking Member with a letter dated July 16 which 
outlined the current status of the implementation reports' 
recommendations.
    TSA continues to fully vet foreign flight school students 
so that U.S. flight schools remain a world leader in flight 
training, while ensuring that only advocates who satisfy the 
security threat assessment receive such training.
    Chairman Rogers, Mr. Davis, I thank you for the opportunity 
to appear before you today and I look forward to answering your 
questions. I also recognize Senator Thompson, as well.
    [The prepared statement of Mr. Wilson follows:]
                  Prepared Statement of Kerwin Wilson
                             July 18, 2012
    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the Transportation Security 
Administration's (TSA) Alien Flight Student Program (AFSP). TSA employs 
risk-based, intelligence-driven operations to prevent terrorist attacks 
and to reduce the vulnerability of the Nation's transportation system 
to terrorism. Our goal at all times is to maximize transportation 
security to stay ahead of evolving terrorist threats while protecting 
privacy and facilitating the flow of legitimate commerce.
    TSA's security measures create a multi-layered system of 
transportation security that mitigates risk. We continue to evolve our 
security approach by examining the procedures and technologies we use, 
how specific security procedures are carried out, and how screening is 
conducted. The mission of the AFSP is to ensure that foreign students 
seeking new or recurrent training at flight schools in the United 
States do not pose a threat to aviation or National security.
                   fulfilling a congressional mandate
    Following the 9/11 terrorist attacks on the United States, where 
terrorists trained at U.S. flight schools in preparation for the 
attacks, Congress included in the ``Aviation and Transportation 
Security Act'' (ATSA) a provision that required the Attorney General to 
determine whether an alien, as defined under the Immigration and 
Nationality Act, presented a risk to aviation or National security 
before that individual could train in the operation of any aircraft 
having a maximum certified takeoff weight (MTOW) of 12,500 pounds or 
more.
    The ATSA gives TSA broad responsibility for securing the Nation's 
civil aviation system, which includes general aviation operations. The 
``Vision 100--Century of Aviation Reauthorization Act,'' (Pub. L. No. 
108-176) was signed into law on December 12, 2003, and Section 612 of 
Title VI, ``Aviation Security'' transferred the responsibility of 
vetting foreign flight student applicants from the Department of 
Justice to TSA, and included provisions distinguishing between training 
on aircraft weighing more than 12,500 pounds and training on aircraft 
weighing 12,500 pounds or less. Subsequently, TSA issued an Interim 
Final Rule to implement these statutory requirements.
    AFSP is a fee-based program that collects approximately $5 million 
in annual fees and represents an added layer of security to protect our 
Nation's transportation networks. Under the program, non-U.S. citizens 
seeking to undergo Federal Aviation Administration (FAA)-certified 
flight training are required to submit to a rigorous background 
screening that includes a name-based terrorism check, a name-based 
immigration check, a fingerprint-based criminal history records check, 
submittal of security documents including passport copies, and specific 
information about their desired training events. The program also 
requires that flight training providers send a digital picture of the 
student within 5 calendar days after the student initiates training. 
Flight training providers regulated under AFSP are prohibited from 
providing flight training to aliens until a Security Threat Assessment 
(STA) has been successfully conducted by TSA.
                    the alien flight student program
    Flight schools are an important business in the aviation industry 
and continue to welcome properly vetted aliens as an economic benefit 
to the United States. General aviation includes more than 200,000 
aircraft operating at more than 19,000 facilities in the United States 
for the purposes of such tasks as air medical-ambulance, corporate 
aviation, and private charters. As a result of this demand, TSA 
receives an average of 48,000 AFSP applications per year (4,000 per 
month).
    Given the diversity of the general aviation landscape, there are 
four different categories under which students can apply to the AFSP, 
depending on the type of flight training they seek:
  <bullet> Category 1--training for operation of aircraft with a MTOW 
        of more than 12,500 pounds, but not fitting into Category 2.
  <bullet> Category 2--training for operation of aircraft with a MTOW 
        of more than 12,500 pounds for individuals who demonstrate 
        certain preliminary indications of reliability such as: A 
        candidate employed by a foreign air carrier that operates under 
        14 C.F.R. Part 129 and that has an approved security program 
        under 49 C.F.R. Part 1546; a student who holds unescorted 
        access authority to a secured area of an airport; a flight crew 
        member who has successfully completed a criminal history 
        records check in accordance with appropriate regulations; or a 
        student who holds an airman's certificate from a foreign entity 
        that is recognized by the FAA or appropriate U.S. military 
        agency and that permits the student to operate a multi-engine 
        aircraft with a MTOW of more than 12,500 pounds.
  <bullet> Category 3--training for operation of aircraft with a MTOW 
        of 12,500 pounds or less for Single Engine Land, Instrument 
        Rating, and/or Multiengine Land events. 49 U.S.C. 44939(c).
  <bullet> Category 4--recurrent training for operation of all aircraft 
        for individuals who are current and qualified on the aircraft 
        for which they are requesting training.
    Since 2001, the AFSP has vetted over 350,000 applications of 
approximately 125,000 unique individuals.
gao study on strengthening security in the general aviation environment
    From March 2011 to June 2012, the Government Accountability Office 
(GAO) assessed TSA's and the general aviation industry's actions to 
strengthen security as well as efforts to ensure foreign flight 
students do not pose a security threat. These efforts include vetting 
foreign flight student applicants through AFSP. GAO found that TSA has 
taken steps to enhance communications with general aviation industry 
stakeholders and improve the vetting of foreign nationals enrolling in 
U.S. flight schools. GAO also found weaknesses in the vetting process 
and in the Department of Homeland Security's (DHS) process for 
identifying flight students who may be in the country illegally.
    TSA concurs with the GAO recommendations on identifying how often 
and why foreign nationals are not vetted under AFSP. The GAO also 
recommends that TSA work with Immigration and Customs Enforcement (ICE) 
to check TSA AFSP data against information DHS has on applicants' 
admissibility status.
    TSA concurs with all of the recommendations identified in the 
report and is in the process of preparing the 60-day update to be 
submitted to GAO by August 10, 2012. TSA will also provide this 
subcommittee with a 90-day status update as requested. Because portions 
of the GAO report contain sensitive security information, I cannot 
fully comment on all the recommendations and TSA's responses in this 
statement. To ensure that the subcommittee is informed of the actions 
TSA undertakes to address the recommendations noted in the GAO report, 
the agency provided the Chairman and the Ranking Member with a letter 
dated July 16, 2012, which outlined the current status of 
implementation of the report's recommendations.
    GAO's first recommendation asked that TSA take steps to identify 
any instances where foreign nationals receive pilot certificates 
without first undergoing a TSA STA and examine the reasons for these 
occurrences in order to strengthen controls and prevent future 
occurrences. On February 21, 2012, TSA entered into a Memorandum of 
Agreement with the FAA to receive a monthly dataset of foreign 
nationals who received their first FAA airman private, sport, or 
recreational pilot certificate. The dataset includes the certificate 
holder's full name, date of birth, certificate level and type ratings, 
date of issuance, certificate number, citizenship, responsible Flight 
Standards District Office, recommending Certified Flight Instructor, 
physical address, and flight school number if applicable. This 
information is a subset of the information that TSA receives daily for 
recurrent vetting and is tailored for AFSP use. TSA utilizes this 
information to cross-check it against the current AFSP database to 
identify individuals who may have circumvented the AFSP STA 
requirements.
    GAO also asked that TSA, in collaboration with ICE, ``develop a 
plan with time frames, and assign individuals with responsibility and 
accountability for assessing the results of a pilot program to check 
TSA AFSP data against information DHS has on applicants' admissibility 
status.'' In November 2010, TSA began working with ICE to mitigate the 
identified concern and conducted the first recurrent lawful status 
check in May 2011. This pilot program was with ICE's Counterterrorism 
and Criminal Exploitation Unit (CTCEU) and the U.S. Visitor and 
Immigrant Status Indicator Technology (US-VISIT) Arrival Departure 
Information System (ADIS) and laid out a process to detect and identify 
AFSP applicants who are in violation of U.S. immigration laws. With 
positive results assessed during the pilot, TSA moved forward with a 
new process to check active alien flight students against the US-VISIT 
ADIS database to identify whether the individual may have overstayed 
the terms of their admission, and providing the results to CTCEU to 
take appropriate immigration enforcement action. If CTCEU identifies 
any issues, they notify TSA for action with respect to aviation 
security. In addition, TSA entered into an information-sharing 
Memorandum of Agreement on February 21, 2012, allowing ICE to access 
the AFSP database to aid in their investigations. By the end of this 
year, TSA plans to further automate this process by interfacing with 
US-VISIT ADIS through their new web services platform. In the mean 
time, TSA will continue to conduct the above-described manual vetting 
process through US-VISIT ADIS to mitigate the issue identified by GAO.
                               conclusion
    TSA continues to fully vet foreign flight school students so that 
U.S. flight schools remain a world leader in flight training while 
ensuring that only those applicants who satisfy our STA requirements 
receive such training. Chairman Rogers, Ranking Member Jackson Lee, I 
thank you for the opportunity to appear before you today, and I look 
forward to answering your questions.

    Mr. Rogers. Well, thank you, Mr. Wilson.
    Our next witness is Mr. John Woods. Mr. Woods is assistant 
director for national security investigations at ICE. His 
division is responsible for programs that target trans-national 
security threats stemming from illicit travel, trade, and 
financial enterprises. Mr. Woods has served in this position 
since 2009. He has 26 years of distinguished experience in law 
enforcement.
    The Chairman now recognizes Mr. Woods for 5 minutes to 
summarize his opening statement.

   STATEMENT OF JOHN P. WOODS, ASSISTANT DIRECTOR, NATIONAL 
  SECURITY INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Woods. Chairman Rogers, Ranking Member Davis, and 
Ranking Member Thompson, distinguished Members of the 
subcommittee, thank you for the opportunity today to appear 
before you to discuss our efforts to identify, address 
vulnerabilities, and prevent the exploitation of our visa 
systems by terrorists and/or criminals.
    Today, I would like to focus on the role and responsibility 
of our counter-terrorism and criminal exploitation unit, or the 
CTCEU, and the opportunities we see to collaborate with TSA to 
improve the vetting process of the alien flight student program 
and the alien flight student population.
    The CTCEU is the first and only National program dedicated 
to the enforcement of non-immigrant visa violations. It is part 
of ICE's Homeland Security Investigations National Security 
Investigations Division. The unit prevents terrorists and other 
criminals from exploiting the Nation's immigration system 
through fraud. It investigates the non-immigrant visa holders 
who violate their immigration status and places a high priority 
on scrutinizing the activities of known or suspected terrorists 
and those associated with terrorists.
    It also prevents criminal exploitation of our student visa 
system. Since its creation in 2003, the CTCEU have had analysts 
resolve more than 2 million such records using automated and 
manual review techniques. ICE opens approximately 6,000 
investigative cases annually and assigns them to our HS-ICE 
special agents in the field for further investigation.
    These investigations result in approximately 1,800 
administrative arrests and 35 criminal arrests annually. In 
2010 HS-ICE special agents investigated TJ Aviation, a flight 
school in Boston, whose flight students consisted primarily of 
visa overstays and illegal aliens. This investigation drew 
attention to the alien flight training in the United States and 
the vulnerabilities that persisted after nearly a decade after 
the 9/11 terrorist attacks.
    Shortly after the TJ Aviation investigation, HS-ICE has 
worked with TSA to help refine the alien flight school program 
policies and procedures. The CTCEU has assigned resources to 
the alien flight school program and to assist in the review of 
HSI and TSI procedures and processes involving alien flight 
students and the schools that train them.
    Since the enhancement of this relationship with TSA, 
several significant changes have been implemented to enhance 
National security of the alien flight school program. One 
significant change is that TSA conducts checks of active alien 
flight students against US-VISIT's arrival and departure 
information system to identify whether an individuals may have 
overstayed the terms of their mission and provides results to 
the CTCEU to take enforcement action.
    Another significant change is TSA has been refining their 
operating procedures to include having TSA inspectors talk to 
alien flight students and physically inspect their documents 
and log books. Additionally, we are conducting these 
inspections with them on weekends where a majority of the 
flight training takes place.
    In December 2011, CTCU developed and implemented Operation 
Clipped Wings. This is a three-phase enforcement operation 
aimed at mitigating the vulnerabilities identified in Alien 
Flight School Program, and the critical infrastructure areas 
associated within aviation.
    The first phase consists of HSI's special agents focusing 
on investigative efforts on those foreign nationals who have 
been identified in the AFSP database, having received flight 
training in the United States, and who have overstayed the 
terms of their admission.
    The second phase will be centered on conducting proper 
immigration checks of all Federal aviation certified pilots and 
crew members. The final phase will focus on employees at repair 
stations, locations that are certified by the FAA to repair 
aircraft.
    To date, Operation Clipped Wings has identified over 30 
investigative leads for HSI special agents to follow up on, and 
has led to four criminal--four administrative arrests.
    These are just a few examples of how ICE is committed to 
promoting National security in working with our DHS 
counterparts in identifying and preventing terrorists from 
exploiting our visa process. I thank you again for the 
opportunity to testify here today, and I would be pleased to 
answer any questions that you may have.
    [The prepared statement of Mr. Woods follows:]
                  Prepared Statement of John P. Woods
                             July 18, 2012
                              introduction
    Chairman Rogers, Ranking Member Jackson Lee and distinguished 
Members of the subcommittee: On behalf of Secretary Napolitano and 
Director Morton, thank you for the opportunity to appear before you 
today to discuss the efforts of U.S. Immigration and Customs 
Enforcement (ICE) to identify and address vulnerabilities in, and 
prevent the exploitation of, our visa system by terrorists and 
criminals. In June 2012, the Government Accountability Office (GAO) 
issued a report entitled, ``General Aviation Security: Weaknesses Exist 
in TSA's Process for Ensuring Foreign Flight Students Do Not Pose a 
Security Threat.'' In response to the report and its recommendations, 
ICE's Homeland Security Investigations (HSI) Counterterrorism and 
Criminal Exploitation Unit (CTCEU) is working in collaboration with the 
Transportation Security Administration (TSA) on a pilot to determine 
lawful status of the active Alien Flight Student Program (AFSP) 
population. By December 31, 2012, TSA will prepare a plan, with 
specific details on time frames and accountability, to assess the 
results of the pilot including recommendations for future steps.
    Visa overstays and other forms of status violation bring together 
two critical areas of ICE's mission--National security and immigration 
enforcement. We cannot overstate the importance of determining who to 
allow entry into the United States and ensuring compliance with the 
conditions of such entry. We are proud of the good work we have done 
over the last 10 years to protect the integrity of our visa system. My 
testimony will focus on the role and responsibility of the CTCEU, our 
successes and the opportunities we see to collaborate with TSA to 
improve the vetting process for the AFSP population.
The Counterterrorism and Criminal Exploitation Unit
    The CTCEU is the first and only National program dedicated to the 
enforcement of non-immigrant visa violations. It is part of ICE's 
Homeland Security Investigations' (HSI) National Security 
Investigations Division. The unit prevents terrorists and other 
criminals from exploiting the Nation's immigration system through 
fraud. It investigates non-immigrant visa holders who violate their 
immigration status and places a high priority on scrutinizing the 
activities of known or suspected terrorists and terrorist associations. 
It also combats criminal exploitation of the student visa system.
    Today, through the CTCEU, ICE analyzes and recommends leads for 
investigation from the Student and Exchange Visitor Information System 
(SEVIS) and the United States Visitor and Immigrant Status Indicator 
Technology (US-VISIT) program.
    SEVIS is the internet-based system that maintains information on 
Student Exchange Visitor Program (SEVP)-certified schools and 
international students who come to the United States on F (academic) or 
M (vocational) visa status to study at those schools, as well as the 
students' dependents. SEVIS also maintains information on U.S. 
Department of State-designated exchange visitor sponsors and J visa 
exchange visitor program participants and their dependents. US-VISIT 
owns two systems: The Automated Biometric Identification System (IDENT) 
and the Arrival and Departure Information System (ADIS), which house 
biometric and associated biographic data on foreign nationals who have 
entered or applied to enter the United States. IDENT and ADIS maintain 
data on foreign nationals such as students, tourists, and temporary 
workers, present in the United States at any given time (including 
flight students and foreign students) and those who have overstayed or 
otherwise violated the terms and conditions of their admission.
    Each year, the CTCEU analyzes records of hundreds of thousands of 
non-immigrants who may have violated their terms of admission or visa 
status, based on data received from SEVIS, US-VISIT, and other sources. 
These records are resolved by further identifying potential Federal 
violations that would warrant field investigations, establishing 
compliance with their terms of admission, or establishing departure 
dates from the United States. Since the creation of the CTCEU in 2003, 
analysts have resolved more than 2 million such records using automated 
and manual review techniques. ICE opens approximately 6,000 
investigative cases annually, and assigns them to our special agents in 
the field for further investigation. These investigations result in 
over 1,800 administrative arrests and approximately 35 criminal arrests 
per year.
    ICE furthers its counterterrorism mission by initiating or 
supporting high-priority National security initiatives based upon 
specific information from the intelligence community. The practice is 
designed to detect and identify individuals exhibiting specific risk 
factors, including international travel from specific geographic 
locations to the United States, and in-depth criminal research and 
social network link analysis.
    A critical component of the CTCEU is the SEVIS Exploitation 
Section, which combats exploitation of the Student and Exchange Visitor 
Program by analyzing SEVIS data and referring school fraud criminal 
investigations to the field for further investigation. The SEVP is part 
of the National Security Investigations Division and is responsible 
for: Certifying schools to accept international students; administering 
SEVIS; and collecting, maintaining, analyzing, and providing 
information so only legitimate foreign students or exchange visitors 
gain entry to the United States.
    For instance, in November 2011, the CTCEU Group in Los Angeles 
arrested Karena Chuang of Wright Aviation Academy for encouraging the 
illegal entry of aliens for private financial gain. On February 6, 
2012, Ms. Chuang pleaded guilty to two counts of this crime. Wright 
Aviation Academy, a non-SEVP-certified flight school, was suspected by 
ICE's Visa Security Program of fraudulently recruiting and training 
foreign flight students from Egypt. As a result of ICE's 
investigation--representative of ICE's layered enforcement approach 
that works to identify and disrupt visa fraud overseas, with a focus on 
dismantling supporting transnational organizations committing such 
fraud, and prosecuting the alleged perpetrators in the United States--
Chuang is alleged to have applied to SEVP-certified schools, posing as 
a foreign student, for the sole purpose of obtaining valid Forms I-20 
(Certificates of Eligibility for Nonimmigrant Student). The students, 
in turn, allegedly used the fraudulently obtained Forms I-20 to get M-1 
(vocational) visas to enter the United States to attend Wright Aviation 
Academy. This investigation successfully upheld the integrity of the 
SEVP program through ICE's layered enforcement approach--identifying 
and disrupting visa fraud overseas, dismantling the transnational 
organization, and prosecuting the perpetrators in the United States.
    In 2010, ICE HSI special agents investigated TJ Aviation, a flight 
school in Boston, whose flight students consisted primarily of visa 
overstays and illegal aliens. This investigation drew attention to 
alien flight training in the United States and the vulnerabilities that 
persisted nearly a decade after the 9/11 terrorist attacks.\1\
---------------------------------------------------------------------------
    \1\ Three of the 9/11 hijackers attended flight schools while 
bearing visas that did not permit flight training.
---------------------------------------------------------------------------
    Shortly after the TJ Aviation investigation, TSA requested an HSI 
liaison to help refine the AFSP policies and procedures. The CTCEU 
assigned a National Program Manager/special agent to the AFSP who is 
currently working to review HSI and TSA procedures and processes 
involving alien flight students and the schools that train alien flight 
students.
    After reviewing TSA procedures and processes, the CTCEU's Liaison 
identified several areas of systemic vulnerabilities. ICE and TSA have 
identified and are discussing several ways to alleviate these issues 
by:
  <bullet> Sharing AFSP data with ICE and SEVIS information with TSA;
  <bullet> Implementing ways for TSA Transportation Security Inspectors 
        to review but not make determinations of legal presence of 
        alien flight students during their semi-annual inspections of 
        AFSP flight training providers and record this information in a 
        historical database;
  <bullet> Implementing a system for ICE and TSA to cooperatively 
        conduct lawful presence checks on aliens in TSA databases;
  <bullet> Implementing joint HSI/TSA outreach to flight training 
        providers that train alien flight students and local airport 
        officials; and
  <bullet> Providing additional assistance and support while 
        investigating flight schools and flight students.
    During the tenure of the CTCEU liaison at TSA, several significant 
changes have been implemented to enhance the National security of the 
AFSP. One significant change is that TSA AFSP conducts checks of active 
alien flight students against US-VISIT's ADIS database to identify 
whether the individual may have overstayed the terms of their admission 
and provides the results to CTCEU to take appropriate action. This 
allows HSI to potentially target the immigration violator without TSA 
alerting the individual. The CTCEU liaison has access to TSA's AFSP 
database and has provided several accounts for HSI special agents 
throughout the United States. Additionally, the CTCEU liaison has 
participated in TSA Special Emphasis STRIKE Operations,\2\ which has 
resulted in TSA refining their operating procedures to include having 
TSA inspectors talk to alien flight students and physically inspecting 
their documents and logbooks and conducting these inspections on the 
weekends when the majority of flight training occurs.
---------------------------------------------------------------------------
    \2\ A ``STRIKE'' is an operational activity involving TSA 
compliance personnel from multiple locations surging at one particular 
location to conduct inspections.
---------------------------------------------------------------------------
    In December 2011, the CTCEU developed and implemented ``Operation 
Clipped Wings,'' an enforcement operation aimed at mitigating the 
vulnerabilities identified in the AFSP and the critical infrastructure 
areas associated with aircrafts. This operation will be implemented in 
three phases. In the first phase, HSI is focusing its investigative 
efforts on those foreign nationals who have been identified in the AFSP 
database as having received flight training in the United States and 
overstayed their terms of admission. The second phase will be centered 
on conducting proper immigration checks on all Federal Aviation 
Administration (FAA)-certified pilots and crew members. The final phase 
will be focused on employees at repair stations--locations that are 
certified by the FAA to repair aircraft. To date, Operation Clipped 
Wings has identified over 30 HSI investigative leads and led to four 
administrative arrests.
                               conclusion
    ICE is committed to promoting National security and has made 
significant progress in identifying and preventing terrorists from 
exploiting the visa process.
    Thank you again for the opportunity to testify today and for your 
continued support of ICE and its law enforcement mission.
    I would be pleased to answer any questions at this time.

    Mr. Rogers. Thank you, Mr. Woods. Our next witness is Mr. 
Jens Hennig. Mr. Hennig is vice president of operations for the 
General Aviation Manufacturers Association.
    Mr. Hennig joined GAMA as the manager of operations in 
2003, and in advance to vice president of operations. Prior to 
joining GAMA, he served as manager of flight operations at 
Embry-Riddle Aeronautical University.
    The Chairman now recognizes Mr. Hennig for 5 minutes to 
summarize his opening statement.

  STATEMENT OF JENS C. HENNIG, VICE PRESIDENT OF OPERATIONS, 
           GENERAL AVIATION MANUFACTURERS ASSOCIATION

    Mr. Hennig. Chairman Rogers, Congressman Davis, Ranking 
Member Thompson, I am Jens Hennig, and I am vice president of 
operations for the General Aviation Manufacturers Association. 
I appreciate you convening this hearing to examining the TSA's 
Alien Flight Student Program.
    GAMA represents over 75 companies, the world-leading 
manufacturers of general aviation products. Our members are 
also involved with the service and support of the industry and 
our flight-training providers in 2011, and accounted for 16,000 
of the individual checks conducted by the TSA, including 56 
percent of the checks conducted for recurrent training.
    Today's hearing specifically focuses on GAO's 
recommendations on ways to strengthen the program with respect 
to visa adherence and data sharing between different governing 
agencies. GAMA views the GAO's recommendations are targeted and 
appropriate to strengthen a specific part of the framework of 
the Alien Flight Program.
    GAMA, however, believes there are some additional securing 
enhancements that also need to be implemented. These 
enhancements will better target TSA's limited resources by 
aligning the required security threat assessment for foreign 
nationals with other security programs.
    The United States is a global leader in pilot training. 
There are currently 944 FAA-certified pilot schools. According 
to the FAA, approximately 22 percent of the airmen tests 
administered last year were to foreign citizens.
    Pilot training is also essential for a healthy 
manufacturing industry. When GAMA members sell new aircraft to 
a customer, it is often accompanied by training for the pilot 
and the crew.
    The current Alien Flight Student Program was created after 
9/11, and the program was transferred from the Department of 
Justice to TSA in 2003, with the requirements established with 
an interim final rule published late 2004.
    As an interim final rule, the program was not subject to 
public review and comment. This was a result in a number of 
areas needing policy interpretations.
    As an example, for many years, there was uncertainty 
between TSA and industry about what constituted recurrent 
training vetting. Recurrent training received specific 
attention both by Congress, and in the rule, for how to create 
a proportional set of requirements to people who are already 
pilots, and pose less risk for training events from a threat 
scenario.
    The lack of clarity resulted in an overly-cautious approach 
by TSA and industry, in vetting people for training activities 
that awarded no additional flying privileges.
    The TSA worked with industry, and in 2010, published new 
policy that drew clear lines as to what is captured by the 
required check. The TSA showed industry how to comply with a 
regulation without redundant checks of the same individual. The 
policy is one of several issued by the TSA over the past 4 
years.
    GAMA welcomes this engagement by TSA with industries to 
develop clear compliance guidance. There are, however, several 
unclear areas and inefficiencies that cannot be addressed 
without changing the framework of the regulation.
    The primary inefficiency is the requirement that a foreign 
national for each stand-alone training event, certificate, or 
rating that they hold. I have provided some examples in my 
written testimony.
    In short, the typical situation is a fully-certified pilot 
who is employed by a foreign commercial airline, and approved 
to operate multiple different types of aircraft. If that 
airline elects to contract with an FAA training center, the 
alien flight regulation is structured to require the pilot to 
be subject to a security threat assessment for each type rating 
that they hold.
    This training, and the multiple--often occur within a 
period of just a couple of weeks. This approach clearly does 
nothing to add to enhanced security, but it wastes Government 
and industry resources in the conduct of the multiple vets of 
the same person.
    GAMA believes that the TSA should shift the approach for 
the STA, and approach--to the approach taken by other programs. 
Basically, we believe that the TSA should shift from an event-
based STA to one that is time-based.
    Based on these concerns, GAMA, in April 2011 petitioned the 
TSA for a rewrite of the program. We did this in response to 
the administration's call for a regulatory review of all 
agencies.
    In August of last year, DHS accepted our proposal for the 
rewrite. At the same time, outlined the TSA's plan to establish 
a streamlined procedure for the vetting of the foreign 
national, implement new information technology, and shift the 
STA to have a validity of 5 years. We believe these changes 
will benefit both the TSA and the students.
    Chairman Rogers, Congressman Davis, thank you for providing 
me the opportunity to discuss with the subcommittee the need to 
make changes to the program. GAMA believes the changes will 
streamline the program, increase Government efficiencies, and 
provide a more effective vetting of foreign nationals seeking 
flight training in the United States.
    At the same time, the rewrite of the program will also lend 
itself to the enactment of the GAO's recommendations, and 
establish a clear regulatory framework for industry. The TSA 
has been a good partner within industry, and we look forward to 
working with them to fully implement the changes.
    Thank you, and I would be glad to answer any questions.
    [The prepared statement of Mr. Hennig follows:]
                  Prepared Statement of Jens C. Hennig
                             July 18, 2012
                              introduction
    Chairman Rogers, Ranking Member Jackson Lee, distinguished Members 
of the subcommittee; my name is Jens Hennig and I am the vice president 
of operations for the General Aviation Manufacturers Association 
(GAMA). GAMA represents over 75 companies who are the world's leading 
manufacturers of general aviation airplanes, rotorcraft, engines, 
avionics, and components. Our member companies also operate airplane 
fleets, airport fixed-based operations, as well as pilot training and 
maintenance facilities world-wide.
    On behalf of our members, I appreciate your convening this hearing 
to examine the Transportation Security Administration (TSA) security 
program for flight schools; often referred to as the alien flight 
student program.\1\
---------------------------------------------------------------------------
    \1\ 49 CFR Part 1552 Flight Training for Aliens and Other 
Designated Individuals; Security Awareness Training for Flight School 
Employees; Interim Rule.
---------------------------------------------------------------------------
                          gao recommendations
    Today's hearing specifically focuses on recommendations by the 
Government Accountability Office (GAO) on ways to strengthen the alien 
flight student program. GAMA understands the recommendations of the GAO 
are two-fold: (1) To strengthen the TSA and the Department of Homeland 
Security (DHS) Immigration and Customs Enforcement (ICE) interactions 
to ensure adherence to visa requirements; and (2) Improving data 
sharing between TSA and the Federal Aviation Administration (FAA) about 
FAA-certified pilots.
    GAMA views the GAO's recommendations as targeted and appropriate 
for strengthening specific parts of the framework of the alien flight 
program. If implemented these recommendations will clarify the 
requirements placed upon flight schools for identifying trainees and 
further define record-keeping requirements about students.
    GAMA believes additional program enhancements need to be 
implemented in other areas. We applaud action taken by TSA over the 
past several years to continue to improve the program, but we have also 
made recommendations in response to the administration's regulatory 
review \2\ that we believe will further streamline the program based on 
risk. These changes, if implemented, will better target the TSA's 
limited resources using risk consideration by aligning the required 
Security Threat Assessment (STA) for foreign nationals with other TSA 
security programs. GAMA is encouraged by the TSA's engagement with 
industry over the past 4 years to clarify the requirements and 
applicability of the program and consider a risk-based approach to 
vetting foreign nationals who elect to obtain flight training from 
companies certificated by the FAA.
---------------------------------------------------------------------------
    \2\ GAMA petitioned the Department of Homeland Security in response 
to its notice Reducing Regulatory Burden; Retrospective Review under 
Executive Order 13563, see Volume 76 Federal Register at 13526.
---------------------------------------------------------------------------
                history and current state of the program
    The regulatory framework in place today originated after September 
11, 2001. The program was originally administered by the Department of 
Justice (DOJ),\3\ but in 2003 Congress transferred the authority over 
background checks for flight training to the TSA.\4\ \5\ GAMA welcomed 
this shift in authority because the background check process under DOJ 
had effectively halted the U.S. flight training industry's ability to 
train foreign nationals, further exacerbating the effects of the 2000-
2001 recession. The TSA established the requirements of the current 
program through the publication of an interim final rule in September 
2004.
---------------------------------------------------------------------------
    \3\ Pub. L. 107-71, the Aviation and Transportation Security Act 
(ATSA), Section 113 introduced a prohibition against flight training 
providers from providing flight training to aliens and certain 
designated individuals pending the Attorney General not notifying the 
training provider within 45 days that the candidate presented no threat 
to aviation or National security.
    \4\ The impact of the DOJ program for vetting for aliens seeking 
flight training in the United States was discussed by GAMA in testimony 
before the Subcommittee on Aviation, Committee on Commerce, Science & 
Transportation of the U.S. Senate, Hearing on Aviation Security, on 
February 5, 2003.
    \5\ Vision 100 Century of Aviation Act, Section 612.
---------------------------------------------------------------------------
    The interim final rule introduced four different categories to 
vetting foreign nationals based on the type of flight training that 
they would undertake where Category 1 or 2 is required for large 
aircraft; Category 3 is required for small aircraft; and Category 4 
applies to recurrent flight training on an aircraft.
    Due to its status as interim final regulation, however, the TSA 
program was not subject to the typical regulatory review and comment 
that allows work between an agency and the industry to establish an 
effective program that ensures security concerns are addressed without 
unnecessarily burdening industry as well as providing for a clear 
process for regulatory compliance.
    During the last 4 years the TSA worked with industry through a 
cross-section of policies, clarifications, and interpretations to 
define today's alien flight student program requirements. Examples of 
issues that industry identified as needing new policy or clarification 
within the framework of the existing regulation include:
  <bullet> What is defined as ``recurrent training''?
  <bullet> Who holds responsibility for ensuring compliance with the 
        program when ``dry leasing''\6\ a simulator?
---------------------------------------------------------------------------
    \6\ The term ``dry lease'' refers to a flight training provider 
leasing its training facilities and devices to an airline which then 
conducts its training at the flight training provider's facilities 
using its equipment.
---------------------------------------------------------------------------
  <bullet> With respect to oversight of the program, does the TSA have 
        responsibility to ensure that the foreign national is in the 
        United States on a valid visa?\7\
---------------------------------------------------------------------------
    \7\ A number of other policy clarifications were developed or 
identified by industry including requirements for U.S. Government 
employees; requirements for U.S. Government-sponsored employees that 
are foreign nationals; and handling of fingerprints.
---------------------------------------------------------------------------
    The TSA's policy clarifications about the program greatly improved 
the processing time for a foreign national seeking flight training. Our 
members have seen the processing time for recurrent flight training 
reduced to approximately to 1-2 days as compared to 3-6 days as 
recently as a couple of years ago. Additionally, the TSA's staff is 
directly engaged with industry and through their ``help desk'' function 
provide necessary support to achieve regulatory compliance for 
individual pilots and flight training providers.
    Industry does, however, face a compilation of regulatory 
interpretations, policy letters, and frequently asked questions when 
determining how to comply with the program. The core remaining concern 
of industry is the requirement that a foreign national seeking to 
undertake flight training in the United States submit to an STA prior 
to starting each training course.
economic impact on the flight training industry and role of the program
    The United States is the global leader in pilot training. There are 
currently 688 active 14 CFR Part 141 FAA-certificated flight schools 
and 256 active 14 CFR Part 142 certificated training centers;\8\ many 
of which involve multiple locations and dozens of aircraft or 
simulators. Additionally, there is training conducted at many schools 
under 14 CFR Part 61. According to the FAA, approximately 22 percent of 
airman tests administered in 2011 were to foreign citizens.\9\
---------------------------------------------------------------------------
    \8\ Organizations certificated by the FAA under 14 CFR Part 141 
typically conduct primary training which is regulated by the TSA under 
Category 3 while organizations certificated under 14 CFR Part 142 
typically conduct aircraft type-specific training and are regulated by 
the TSA under Category 1, 2, and 4 of the 49 CFR Part 1552.
    \9\ See, FAA analysis of airman certification knowledge exams in 
response to GAMA request July 12, 2012.
---------------------------------------------------------------------------
    The economic importance of the foreign individuals seeking flight 
training in the United States cannot be understated. In 2011, the TSA 
conducted 47,651 individual checks of foreign nationals seeking flight 
training in the United States including 20,407 for Category 4 recurrent 
trainees.\10\
---------------------------------------------------------------------------
    \10\ See, TSA analysis of 2011 alien flight activity in response to 
GAMA request received July 13, 2012 identified Category 1 (3,930), 
Category 2 (4,095), Category 3 (19,219), and Category 4 (20,407) for a 
total of 47,651 checks.
---------------------------------------------------------------------------
    The future need for commercial, business, and general aviation 
pilots continues to grow. In a forecast released just last week, the 
predicted need for commercial airline pilots will be 460,000 pilots 
world-wide through 2031.\11\ This figure does not include the tens of 
thousands of pilots needed by operators outside commercial aviation 
such as business and general aviation.
---------------------------------------------------------------------------
    \11\ See, 2012 Pilot and Technician Outlook, Boeing, July 11, 2012 
at www.boeing.com/commercial/cmo/pilot_technician_outlook.html.
---------------------------------------------------------------------------
    The TSA's alien flight program is at the center of commerce both 
for the companies that are in the business of pilot training, but also 
of great importance to manufacturers of commercial and general aviation 
aircraft and their operators. The impact on the manufacturing industry 
is indirect, but for each export of an aircraft to a foreign customer, 
the aircraft manufacturers will as part of the sales contract include 
the training of the customer's pilots. Without the ability to 
effectively train pilots to safely operate aircraft, the aviation 
manufacturing and operator industry would be grounded. The U.S.-based 
flight training and aircraft manufacturing industry supports tens of 
thousands of high-paying jobs.
    GAMA's members worked with the TSA to facilitate the vetting of 
16,683 customers' individual checks in 2011 including 56 percent of the 
Category 4 checks. Training is conducted by GAMA members in numerous 
flight training centers across the United States and the world in 
hundreds of simulators and aircraft.
                 gama's petition for regulatory review
    GAMA began work with the TSA in 2009 to address several policies 
that we believe were either unclear or not addressed when the 
requirements for vetting foreign nationals were established. TSA had 
recognized the issues that existed with the program and worked 
cooperatively with industry to develop guidance. One example was the 
uncertainty about what the TSA viewed as constituting ``recurrent 
training''\12\ which had the troublesome effect of the same person 
being subject to not one STA, but often several STAs for different 
programs over the course of just a few weeks. There were also different 
interpretations applied to flight training providers as to what 
activity would require the trainee to undergo another Category 4 
recurrent check.
---------------------------------------------------------------------------
    \12\ Congress specifically separated the requirements for recurrent 
training, that is pilots who already know how to competently and safely 
operate and aircraft, when transferring the authority to the TSA as it 
is widely recognized that STAs of a pilot who is in the United States 
to undertake recurrent training exposes the aviation system and 
National security to de minimis risk. Congress, however, in 2009 
expanded the requirements of the alien flight student program in the 
Consolidated Security, Disaster Assistance, and Continuing 
Appropriations Act, 2009 (Appropriations Act of 2009), which amends 6 
U.S.C. 469, and requires the Secretary of the Department of Homeland 
Security to: (1) Establish a process to determine that an alien who 
takes recurrent flight training is properly identified and does not 
pose a threat to aviation or National security; and (2) impose 
reasonable fees to recoup the cost of checking recurrent training 
candidates.
---------------------------------------------------------------------------
    TSA published a new policy \13\ that provided clarity about 
recurrent training in 2010. The TSA's new policy identified what types 
of courses are subject to STA using common aviation terminology. This 
policy has had the positive impact of reducing the number of times that 
the same person is vetted by the TSA in a short period of time. This 
efficiency has greatly enhanced the competitiveness of FAA-certified 
flight training providers and was achieved without reducing security 
since all foreign nationals are still subject to the same STA, but 
without the duplication.
---------------------------------------------------------------------------
    \13\ TSA Docket No. TSA-2004-19147, Interpretation of ``Recurrent 
Training'' and Changes to Security Threat Assessment Process for 
Recurrent Training, September 13, 2010.
---------------------------------------------------------------------------
    The TSA, working jointly with industry during 2009 through 2011, 
successfully implemented a number of other policy clarifications for 
the alien flight program that resulted in shorter threat assessment 
review times and reductions in the number of times one person is vetted 
by the TSA within a short period of time. The program, however, in its 
current status as an interim final rule remains difficult to understand 
for applicants and still includes several inefficiencies. As a result, 
numerous policy clarifications have been necessary and the TSA was 
prompted to post a Frequently Asked Question section on its website. 
The flight training industry is also experiencing some confusion in the 
field when subject to TSA audits since the current program looks quite 
different from the requirements in 49 CFR Part 1552.
    The primary inefficiency remaining is the requirement to vet a 
foreign national for stand-alone training courses for new certificates 
or ratings. There are two common problems.
    (1) Persons who are not pilots, but come to the United States to 
        become commercial pilots, (so called ab initio training). A 
        training program to become a commercial pilot covers 4-5 
        separate FAA certificates or ratings which are typically taken 
        by the student over the course of 1 year. Currently, the TSA 
        program requires that the foreign national submit to the alien 
        flight program STA for each individual certificate or rating 
        course with the result that the TSA conduct multiple vets of 
        the same person within 1 year for a corresponding fee for each 
        vetting.
    (2) Professional pilots that hold multiple type ratings which each 
        permit that pilot to fly a unique aircraft. The pilots with 
        multiple type ratings that elect to do recurrent type rating 
        training in the United States must submit to the STA for each 
        type rating they hold. This means that a foreign national in 
        the United States doing three type ratings within a couple of 
        weeks must submit their information to an STA three times prior 
        to starting training.
    These practices raise costs, create confusion, and they do not 
enhance security. It is GAMA's belief that the intent of Congress and 
the regulation was not to vet the same person on multiple occasions 
simultaneously or with high frequency, but instead ensure that each 
person that receives FAA flight training is vetted one time prior to 
the start of training and that the TSA has an understanding of who is 
taking flight training. If not, the TSA wastes scarce Federal resources 
when checking the same person multiple times, sometimes on the same 
day. At the same time, industry is subject to duplicative and redundant 
requirements at direct cost through the payment of the STA fee and 
indirectly through the requirement to submit the same personal 
identifiable information multiple times.
    GAMA believes that the TSA should shift its approach to Security 
Threat Assessment of foreign nationals seeking flight training to the 
approach in other TSA programs. For example, instead of having the STA 
be event-based (that is, when a person elects to do a certain 
activity), it could be time-based (that is, the person be required to 
submit to an STA with a certain frequency and allow the agency to 
maintain the information about the individual to conduct constant 
vetting of that person's name and information against appropriate 
threat lists and the flight training provider notifying the TSA that 
additional training is about to commence with that person.)
    On April 13, 2011, GAMA petitioned the TSA to rewrite the alien 
flight student program in response to the administration's call for a 
regulatory review of all agencies. In our petition, we identified 
several areas that need further policy clarifications and proposed that 
the TSA shift to require foreign nationals to be vetted no more 
frequently than annually. GAMA also proposed the removal of the four 
categories in the existing program and the sunset of recurrent training 
as a separate requirement in favor of a single consistent process where 
the flight training provider and the TSA ensure foreign nationals are 
subject to an STA within the prescribed time frame.\14\ GAMA's petition 
was formally endorsed by the Aircraft Owners and Pilots Association 
(AOPA), the main association representing the general aviation pilot 
community.\15\
---------------------------------------------------------------------------
    \14\ See, TSA Docket No. DHS-2011-0015: DHS Retrospective Review.
    \15\ See, TSA Docket No. DHS-2011-0015; AOPA Letter Dated April 12, 
2011.
---------------------------------------------------------------------------
    In its final plan for executing the regulatory review, the 
Department of Homeland Security accepted GAMA's proposal.\16\ At the 
same time, DHS identified the TSA's plan to introduce a streamlined 
procedure for students; implement new information technology 
infrastructure to better administer the program; make the STA valid for 
5 years; and sunset the four categories for training in the existing 
program. We believe these changes will benefit both TSA and students 
and that the rewrite of the program would lend itself to incorporate 
those recommendations by the GAO that are applicable to regulated 
entities. GAMA also expects noticeable savings to the TSA through a 
reduced volume of STAs; more targeted oversight through a more 
efficient program; and enhanced competitiveness of U.S.-based flight 
schools when catering to the growing world-wide pilot training market.
---------------------------------------------------------------------------
    \16\ U.S. Department of Homeland Security, Final Plan for the 
Retrospective Review of Existing Regulations, August 22, 2011.
---------------------------------------------------------------------------
                               next steps
    GAMA, in cooperation with other associations and our member 
companies, have worked with the TSA since 2011 to further refine the 
new regulatory framework of the alien flight student program. GAMA met 
as recently as February with the TSA to respond to questions on 
specific ways to enhance the program including new information 
technology. We continue to encourage the TSA to prioritize the rewrite 
internally and to advocate consideration by the Department of Homeland 
Security so that the rulemaking process can conclude.
    While the agency has been a willing partner for the alien flight 
program, its inability to complete other rulemaking continues to impede 
our manufacturing competitiveness and the DHS's rulemaking pipeline 
remains a concern to GAMA.
    Mr. Chairman, thank you for providing me the opportunity to discuss 
with the subcommittee an overview of the necessary changes to the alien 
flight student program. GAMA believes that these changes will 
streamline the program, increase Government efficiencies, and provide a 
more effective execution of vetting of foreign national seeking flight 
training in the United States. At the same time, the restructuring of 
the program will also lend itself to the enactment of GAO's 
recommendations in a new, clear regulatory framework that industry and 
Government can build upon in a safe and secure manner.
    Thank you and I would be glad to answer any question that you may 
have.

    Mr. Rogers. Thank you, Mr. Hennig. Our last witness is Mr. 
Douglas Carr. Mr. Carr is the National Business Aviation 
Association's vice president for safety, security operations, 
and regulations. He is responsible for leading the 
association's efforts on business aviation safety and security, 
and has oversight of NBAA's regulatory activity involving 
business aviation, aircraft equipment mandates, operations, and 
security.
    The Chairman now recognizes Mr. Carr for 5 minutes to 
summarize his opening statement.

   STATEMENT OF DOUGLAS CARR, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, NATIONAL BUSINESS AVIATION ASSOCIATION

    Mr. Carr. Chairman Rogers, Ranking Member Thompson, Mr. 
Davis, thank you very much for the opportunity and the 
invitation to speak before you today. As the Chairman 
mentioned, my name is Doug Carr. I am the vice president for 
safety, security, and regulation at the National Business 
Aviation Association.
    NBAA's over 9,000 members represent a wide variety of 
companies who all operate business aircraft to support their 
travel needs, or are involved in the support of the business 
aviation industry.
    In my role at NBAA, I have had the opportunity to work with 
TSA since its early days as an agency, and have served in a 
number of advisory capacities. That includes currently serving 
as the co-chairman of the TSA's Aviation Security Advisory 
Committee, General Aviation's subgroup.
    Let me start by reaffirming the general aviation's 
community to working with our Government leaders to improve 
security for our transportation system. We continue to seek 
productive and innovative ways to partner with the Federal 
Government to develop reasonable and effective security 
regulations, policies, and programs that ensure our National 
security while facilitating general aviation operations. This 
includes the Alien Flight School Program.
    Business aviation, as you have heard earlier, is a vital 
portion of our National economy. With over $100 billion worth 
of economic output each year, and over 1 million employees 
involved in the industry, it is a vital part of our economy.
    The operations conducted by business aviation are wide and 
diverse, including firefighting, EMS operations, agricultural, 
to law enforcement, non-profit, and business operations of all 
shapes and sizes.
    Many small and rural communities are connected to the 
broader transportation system by business aviation aircraft. 
These companies that utilize these aircraft also recognize the 
value of giving back to their local citizens through 
participation in charity, and charitable organizations such as 
the Corporate Angel Network, the Veterans Airlift Command, and 
Angel Flight, that provide free transportation to cancer 
patients, to military veterans and their families, and to 
others needing medical assistance.
    As has been mentioned earlier, the general aviation 
community has been very proactive in working with TSA and other 
Government agencies in the development of a number of security 
enhancements for our community. These include the development 
of a toll-free hotline to report suspicious activity at 
general-aviation airports; a recommendation to issue 
Government-issued, tamper-proof identification for pilots; 
financial transaction monitoring improvements; and TSA 
guidelines for aircraft, for general aviation aircraft, and 
airport operators.
    The focus of today's hearing being the Alien Flight School 
Program, is one of TSA's programs that affect many people 
beyond our borders. It is important, I think, that we look at 
some of the improvements that have been made in the program 
since its early days.
    Initially, the program required a foreign flight-training 
candidate to come to the United States to initiate that 
clearance process, and often then wait here for 30 to 45 days 
as that clearance process took place.
    Today, the candidate no longer is required to come to the 
United States, and that clearance process takes only a few 
days. That has significantly improved the system for the 
flight-training candidate, and for the flight schools who have 
to schedule a number of simulators, classrooms, instructors, 
and aircraft.
    But as with any program, there is always room for 
improvement. We look forward to working with TSA following this 
hearing to address many of the issues raised by the GAO report.
    Some of the things that we have addressed with TSA that 
will come as no surprise to them, in terms of areas of 
improvement, include the area identified by Mr. Hennig, dealing 
with focusing the clearance on the candidate, as opposed to the 
training event. We believe that will allow TSA to focus its 
resources in areas that will have a dramatic improvement.
    In addition, we believe that increased guidance and 
regulatory support for helping flight schools identify exactly 
what they need to do to comply with the rules, will eliminate 
much of the ambiguity and variability that exists today across 
the flight-school community in complying with the Alien Flight 
School Program.
    In addition to improving guidance related to a unique 
situation, dealing with dry-leasing of full flight motion 
simulators, the U.S. flight-training industry, we believe, is 
the best in the world. These flight schools produce students 
that are well qualified to fly in both private and commercial 
environments throughout the world. Thousands of U.S. jobs are 
supported by the U.S. flight-training industry.
    We should ensure that our regulations and policies not only 
eliminate and prevent the opportunity for terrorists to exploit 
that system, but also to ensure that our flight-training 
industry remains the best in the world. Thank you for the 
opportunity to be here today, and I look forward to answering 
any of your questions.
    [The prepared statement of Mr. Carr follows:]
                   Prepared Statement of Douglas Carr
                             July 18, 2012
    Chairman Rogers, Ranking Member Jackson Lee, Members of the 
subcommittee, on behalf of the more than 9,000 members of the National 
Business Aviation Association (NBAA), we appreciate this opportunity to 
provide our views at this important hearing on general aviation 
security and American flight schools.
    I am Doug Carr and I serve as vice president for safety, security, 
and regulation at the National Business Aviation Association based here 
in Washington, DC. NBAA represents over 9,000 diverse companies with 
one thing in common--they all depend on general aviation aircraft for 
the conduct of their business. In this position, I have worked with the 
Transportation Security Administration (TSA) since its first days as a 
Government agency and have served in several advisory capacities, which 
include currently serving as co-chairman of the Aviation Security 
Advisory Committee (ASAC) General Aviation Subgroup.
    The general aviation community is committed to the security of our 
National transportation system. We continue to seek productive ways to 
partner with the Federal Government on developing reasonable, workable, 
and effective regulations that simultaneously ensure security and 
facilitate general aviation operations. This includes the TSA's Alien 
Flight Student Program (AFSP).
                     facts about business aviation
    From creating growth opportunities and global connectivity for 
America's small towns and rural areas to supporting the Nation's 
productivity, business aviation is an important economic engine, 
creating jobs and investment, while contributing to the world's leading 
aviation system. Business aviation is absolutely essential as U.S. 
companies work to compete in a global marketplace. Simply put, business 
aviation is a vital part of the Nation's economy and transportation 
system.
    Business aviation is defined by the FAA as the use of any general 
aviation aircraft (piston or turbine) for a business purpose. NBAA was 
founded 67 years ago to represent companies that utilize general 
aviation aircraft as a tool for meeting some of their transportation 
challenges. While NBAA member companies purchase billions of dollars 
per year in commercial airline tickets, there are critical situations 
where the use of a general aviation aircraft is indispensible. For U.S. 
companies to be successful in these challenging economic times, every 
business tool must be available--including general aviation aircraft.
    General aviation is an essential economic generator, contributing 
more than $150 billion to annual U.S. economic output, and employing 
more than 1 million people. Most general aviation aircraft operating 
around the world are manufactured and/or completed in the United 
States, and our industry is continuing to build a strong American 
manufacturing and employment base that contributes positively to our 
National balance of trade.
    General aviation includes diverse operations, with business uses 
that range from agriculture, to law enforcement, to fire and rescue 
services, to varied Government, educational, nonprofit organizations 
and businesses of all sizes. Servicing and supporting these 
organizations are FBO's, maintenance technicians, suppliers, and 
service providers.
    Business aviation is not only an economic lifeline for thousands of 
our Nation's smaller communities; it also supports people and 
communities in times of crisis in the United States and around the 
world.
    General aviation has snapped into action when there's a need to 
confront floods in the Midwest, fires in the West, or a whole host of 
other natural disasters. The business aviation community--working 
mostly on a volunteer basis--has always been quick to help assess 
damage, rescue those affected by these disasters, and carry in 
lifesaving support and supplies to the affected regions.
    In addition, hundreds of GA operators carried thousands of 
passengers and over a million pounds of supplies to and from Haiti 
after the devastating earthquake there. In fact, Congress passed a 
resolution commending general aviation for its response to the crisis.
    The people who rely on a general aviation aircraft for business are 
also dedicated to helping provide life-saving flights to the 
communities in which they live and work. Operations like the Corporate 
Angel Network arrange free air transportation for cancer patients 
traveling to treatment using the empty seats aboard business airplanes. 
Angel Flight America's seven member organizations and 7,200 volunteer 
pilots arrange flights to carry patients to medical facilities.
    The Veterans Airlift Command uses business airplanes and unused 
hours of fractional aircraft ownership programs to provide free flights 
for medical and other purposes for wounded service members, veterans, 
and their families. Veterans Airlift finds volunteers in the business 
aviation community to fly missions on request and contribute the full 
cost of their aircraft and fuel for the missions flown.
              economic challenges facing business aviation
    Unfortunately, the people and businesses in general aviation, like 
other industries, are weathering one of the worst economic storms 
anyone has ever seen. The impact of the flagging economy on the 
companies and communities that rely on general aviation is visible in 
all parts of the country.
    Over the past few years, we saw business aviation flying decrease 
by as much as 35 percent in some locations--which unfortunately led to 
thousands of layoffs across the industry and country. While we have 
seen some uptick in flight activity in recent months, activity is still 
below the 2008 levels and experts agree that the recovery will be slow 
and gradual over the next several years.
               tsa's alien flight student program (afsp)
    Since the events of 9/11, NBAA and indeed the entire general 
aviation community has been very proactive in enhancing security by 
developing and implementing a large number of workable and effective 
security measures.
    The general aviation community has worked closely with several 
Government agencies including the Department of Homeland Security (DHS) 
and the Transportation Security Administration (TSA) and this 
partnership approach has produced tangible results. The security 
measures we have implemented include the creation of a toll-free 
general aviation security reporting hotline for any suspicious activity 
at an airport, the monitoring of aircraft financing transactions, a new 
requirement for Government-issued, tamper-proof photo IDs for pilots, 
and guidelines for security at general aviation airports and an AOPA 
Airport Watch program. In addition, 8 years ago, NBAA members in the NY 
area voluntarily initiated a pilot program to design a security program 
specifically for operations in that area.
    The Alien Flight School Program (AFSP) represents one of TSA's 
programs that affect many people beyond our borders. The goal of the 
program, we believe, is vital in protecting our National security. 
While the program initially created a substantial burden for foreign 
citizens seeking flight training in the United States, recent program 
changes and continued feedback from the flight training industry have 
produced improvements not only in the program, but also for foreign 
flight training candidates.
    It is important that we note the improvements made in the Alien 
Flight School Program since its inception. When the program began, it 
was common for a flight training candidate to come to the United States 
for processing, only to then wait an additional 30-45 days for a review 
and approval to then begin training. These days, processing takes only 
a few days and does not require the candidate to come to the United 
States in advance. The improvements made to the clearance process have 
reduced the uncertainty of securing a clearance while improving the 
flight school's ability to schedule classroom, simulator, and aircraft 
training.
    These improvements resulted from on-going and collaborative 
feedback from the flight training industry and is an example of how we 
can work together to overcome challenges. NBAA looks forward to 
partnering with DHS and TSA in working to address concerns raised by 
the recent GAO report. This hearing today will be extremely beneficial 
in this effort.
    We continue to work with the TSA on other areas of the AFSP that 
need improvement. These include:
  <bullet> Assigning a security clearance to an individual, not a 
        training event.--Currently, a flight school must submit an 
        individual for clearance for every training event he or she 
        attends, regardless of how many training visits this entails. 
        We believe that one candidate-centric review should suffice for 
        a defined period of time, perhaps 5 years, regardless of the 
        number of training events.
  <bullet> Improving regulatory guidance.--Flight schools still face a 
        wide variety of interpretation regarding various, sometimes 
        basic elements of the program. More standardized guidance to 
        flight schools about the program would assist with compliance 
        and oversight.
  <bullet> Dry leasing of simulators.--Current guidance requires both 
        the simulator owner and simulator lessor to submit candidates 
        for clearance. This seems duplicative and does not appear to 
        enhance security. Updating TSA's guidance on who should submit 
        names for clearance would greatly reduce the burden on both the 
        Government and the industry in the clearance process.
    We strongly believe that the U.S. flight training industry is the 
best in the world. Students leave U.S. flight schools very well 
prepared to deal with the challenges of private and commercial flying 
regimes throughout the world. Thousands of jobs in the United States 
are supported directly from the flight training industry and our 
policies and regulations should not only ensure that flight candidates 
do not represent a security threat to our Nation, but also continue to 
appropriately support the United States as the preeminent flight 
training location in the world.
    Mr. Chairman, Ranking Member Jackson Lee and Members of the 
subcommittee, the general aviation community is grateful for the 
tremendous leadership this committee has provided as we collectively 
work to address these vital homeland security issues.
    We would like also to note the efforts of this committee to support 
the inclusion of the GA community in the TSA ASAC process--including 
most recently in Ranking Member Thompson's ``Aviation Security 
Stakeholder Participation Act'' (HR 1477)--which passed the House on 
June 28. On behalf of NBAA, I would like to reiterate our appreciation 
to the committee for your continued support for general aviation.
    Thank you.

    Mr. Rogers. Thank you, Mr. Carr. The Chairman now 
recognizes himself for 5 minutes of questions.
    Mr. Lord, isn't it true that, based on your report, the 
Transportation Security Administration cannot assure the 
American people that foreign terrorists are not in this country 
learning how to fly airplanes? Yes or no?
    Mr. Lord. At this time, no.
    Mr. Rogers. That is what I thought. Mr. Wilson, who bears 
responsibility for that?
    Mr. Wilson. Ultimately, the Transportation Security 
Administration is responsible for the Alien Flight Student 
Program. During Mr. Lord's testimony in the GAO report, what 
was not noted was that there is an additional Federal agency 
that has the autonomy to allow Alien Flight students to also 
begin training. That was not captured during the testimony.
    When he spoke of several weaknesses, and there was a 
disconnect between the FAA's registry information and TSA's 
AFSP database, no one really looked into the other Federal 
agency to see how many of those were vetted through that 
particular agency.
    Mr. Rogers. But shouldn't the TSA know--shouldn't they be 
working in coordination with Immigration and Customs 
Enforcement and other Federal agencies to know who is being 
vetted and approved and who is not?
    Mr. Wilson. Yes, sir. As you have heard before from all 
these panel members before me today, you have heard that TSA 
has done a tremendous job in the collaboration with our 
stakeholders, as well as other Federal agencies.
    We have increased our--treaty engagement very greatly in 
the last 24 months. This panel here recognizes that TSA is 
making its best effort to ensure that we address the 
inefficiencies in all of our problems, not just the Alien 
Flight Student Program, as well as addressing all of the 
vulnerabilities.
    Mr. Rogers. Mr. Wilson, I beg to differ with you. The only 
thing that TSA has done a tremendous job of is losing the 
American people's confidence. GAO identified this, Mr. Wilson. 
GAO identified examples where foreign nationals were rejected 
by TSA but somehow managed to complete flight training anyway. 
How is that possible?
    Mr. Wilson. Chairman Rogers, I don't recall seeing that in 
the GAO report. What I do recall seeing is that there are 
individuals that were still being adjudicated through the 
vetting process that hadn't been allowed to conduct flight 
training.
    As I said earlier in my testimony, sir, the first line of 
defense in order to prevent these individuals from protecting 
flight training is our flight training providers. Flight 
training providers are not supposed to allow these individuals 
to begin in training until they have received information from 
TSA that these individuals have undergone and completed a 
successful----
    Mr. Rogers. What about if a certain time period lapses 
without the TSA making a determination? Are they allowed to go 
ahead and start their training?
    Mr. Wilson. Yes sir, they are.
    Mr. Rogers. So they can get trained without TSA?
    Mr. Wilson. They can begin training, but within a certain 
period of time we continuously vet these individuals until we 
can determine whether or not that they are suited to begin 
flight training or not.
    Mr. Rogers. Mr. Lord, you heard my question a minute ago 
about the foreign nationals who were rejected by TSA somehow 
managing to get flight training anyway. Is that not in your 
report?
    Mr. Lord. Yes, that is the second example we provide under 
the vetting process. We didn't use the word rejection. We said 
they initiated the vetting process, but did not receive an 
affirmative response from TSA yet they were still able to go on 
and take flight training.
    For the record, I would like to respond to one comment Mr. 
Wilson made. The one agency he indicates we did not mention, it 
is fully discussed in the SSI version of our report. So I just 
want to be clear. We have a full understanding of the vetting 
process and all the various Government agencies involved.
    Mr. Rogers. Well, I agree, and nobody's hands are clean. 
Mr. Woods, obviously this committee is concerned about this 
report and its finding. Are you concerned about it?
    Mr. Woods. We are concerned, and we are working closely 
with our DHS counterparts with TSA to ensure that their 
procedures in vetting these Alien Flight students goes the 
right way. We have been working with them for over a year now, 
and as I used in my opening statement, in correcting the 
processes they use in the vetting process. They were previously 
using for immigration checks the database that would not 
necessarily determine an immigration status. So we are making 
sure they use the right database, and we are working with the 
program to ensure that they determine the right status before 
they give that clearance.
    Mr. Rogers. Okay. You learned about these report's findings 
preliminarily 2 months ago. Have you already started programs 
or processes to remedy these problems?
    Mr. Woods. Absolutely, previous to even the report being 
issued based on the--as I said, the TJ aviation investigation.
    Mr. Rogers. Can you tell this committee a time certain in 
which you think that those remedies will be completely in place 
and satisfactorily operating?
    Mr. Woods. From what I understand, TSA plans to issue a 
report by December outlining their new policies and procedures.
    Mr. Rogers. Goodness gracious. We have got to wait until 
December to find out what you all are going to do to fix this? 
I mean, surely you can tell us that you have remedied these 
problems, Mr. Wilson, without having to wait to December.
    Mr. Wilson. Chairman Rogers, we have remedied the 
situation. What we were talking about and we are providing in 
December is a report based on the activities that we recover 
from the time frame that we complete this process up until 
December. We do have a plan in place. We are working very 
closely with ICE in terms of automating the process to ensure 
that TSA is also checking for immigration status, as well as 
the terrorist screening database.
    The individuals that are being vetted today are undergoing 
a TSDB check. They are undergoing the--criminal history check, 
as well as the tax check. We also discussed immigration 
concerns with ICE. When there is an individual that is 
identified as having immigration issues, we immediately prevent 
them from taking training and discuss it with ICE.
    Mr. Rogers. Thank you. My time is expired. The Chairman now 
recognizes Mr. Davis for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. Mr. Wilson, 
GAO's report states that TSA has not ensured that all foreign 
nationals seeking flight training in the United States have 
been vetted through the Alien Flight Student Program prior to 
beginning training.
    Further, it states that TSA has not established controls to 
help verify the identity of individuals seeking flight training 
who claim U.S. citizenship. What responsibility does a flight 
training school have to ensure that a foreign national seeking 
flight training has been vetted through the Alien Flight 
Student Program prior to training beginning?
    Mr. Wilson. Thank you, Mr. Davis. As I stated earlier, 
flight training providers, as regulated under this program, are 
required to wait for TSA to tell them that these individuals 
have completed a security threat assessment. Our first line of 
defense in preventing these individuals from flying is the 
flight school. It is the flight training providers.
    The second thing: TSA does inspections yearly, sir. We do 
approximately 7,000 inspections of the flight training 
providers. We have a 96 percent compliance rate. That is a very 
high percentage, 96 percent. When we talk about whether or not 
these individuals haven't been vetted or processed through 
TSA's program, once again, no one has really addressed that 
there is another Federal agency that also vets these 
individuals prior to them starting flight training.
    Mr. Davis. Well, does TSA have any process in place to 
verify the citizenship of persons who self-certify as U.S. 
citizens?
    Mr. Wilson. Sir, in regards to that particular question, 
the information--I can't go into great details about that 
information. It is SSI.
    But I will tell you that issue is a Government-wide issue 
in terms of verifying the U.S. citizenship, not only within the 
general aviation community but through various other 
transportation sectors and other communities as well. We do 
understand it is an issue. We do understand it is a concern. We 
are taking the necessary steps to look at some technology that 
will be applicable to certain activity.
    Mr. Davis. Mr. Woods, let me ask you: How can ICE support 
TSA's on-going process to vet foreign nationals prior to 
training at a flight school?
    Mr. Woods. Representative Davis, thank you. We have been 
for the past year vetting TSA's Alien Flight School population. 
We have vetted over 19,200 individuals for them for their 
immigration status. As I said in my oral statement, we have 
identified 30 possible individuals that were here unlawfully or 
overstayed their visa, and we sent those leads out to the field 
under Operation Clipped Wings to initiative investigations.
    Mr. Davis. Mr. Wilson, according to your testimony, since 
2001 the Alien Flight Student Program has vetted over 350,000 
applications of approximately 125,000 unique individuals. What 
would cause the same individual to be vetted multiple times, 
and is there a more efficient system that could be put in place 
to prevent this?
    Mr. Wilson. Senator Davis, yes sir. Mr. Hennig to my left 
here brought that issue up during his oral testimony.
    When an individual applies for training, whether it is 
Category 1, Category 2, or Category 3 or 4, each time that 
individual applies for training, he or she must go through that 
same vetting process again. The program itself is set up that 
way. It has become an issue in the industry, and the industry 
has identified that this is costly, and at times is sometimes 
as well as burdensome.
    As Mr. Hennig said earlier, in order for TSA to really 
address this issue and this concern, it is going to take 
rulemaking. I have sat down with our leadership to discuss the 
applicable tool in order to address the concerns of the AFSP. 
But we have gotten a tremendous amount of support and input 
from our stakeholders, training providers, as well as Mr. 
Hennig's association.
    Mr. Davis. Thank you very much. Mr. Chairman, I see my time 
is about to expire.
    Mr. Rogers. I thank the gentleman. What was that thing you 
said? In order for us to be successful, we are going to have to 
have what?
    Mr. Wilson. In what terms? I am sorry, sir.
    Mr. Rogers. Right at the end of your statement, you said in 
order for us to be successful we are going to have to have, and 
I missed that word.
    Mr. Wilson. I am sorry. We will have to conduct rulemaking.
    Mr. Rogers. Rulemaking. Okay. All right. Thank you. I just 
couldn't hear it. All right. The Chairman will now recognize 
Mr. Cravaack for 5 minutes for questions.
    Mr. Cravaack. Thank you, Mr. Chairman. Thanks for the panel 
for being here today. You know, it is kind of a personal note 
here is that Moussaoui was actually flying the same simulators 
I flew at Northwest Airlines. So this is kind of a personal 
issue with me.
    Mr. Wilson, thank you very much for your service in the Air 
Force. Appreciate your service to this great country of ours. 
From important testimony, it appears that not all--my 
understanding is not all flight attendees are actually going 
through the screening before they actually start flight 
training. Did I hear you say that correctly?
    Mr. Wilson. What I said earlier, sir, there is a percentage 
of individuals that do not process through the TSA AFSP. There 
is an additional Federal agency that we will not discuss today 
because that information is SSI that has its own process. That 
is what I said, sir.
    Mr. Cravaack. Okay. So just to make sure I am clear on 
this, before anybody steps into any type of training, they have 
to be totally--the promise is everyone is cleared if everybody 
is doing their job at the flight training schools?
    Mr. Wilson. That is correct, sir. If everyone is doing 
their job, a flight training provider is not permitted to allow 
anyone to conduct training, unless cleared by TSA or the 
additional--or the other agency that we cannot speak about 
today.
    Mr. Cravaack. Roger that. Okay. Mr. Lord, can you comment 
on that?
    Mr. Lord. Yes. What he said is technically accurate, but I 
just want to clarify something. Again, we did--we compared the 
two databases. We found the discrepancy. We asked them, we 
asked TSA what percent is doing to--you know, for legitimate 
reasons as allowed by this other agency he is referencing, and 
we could not get any granularity beyond that.
    We found a discrepancy, but TSA couldn't explain what 
portion of the discrepancy was contributed by this one other 
Government agency Mr. Wilson is referring to. So we think they 
need to do some more work and figure that out.
    People aren't getting vetted. We want to know, is it 
because it is this other Government agency, or is it for some 
other reasons? That is what our recommendation is intended to 
accomplish. We think that is where they need to do some more 
homework.
    Mr. Cravaack. Okay. I understand that. Mr. Wilson, I guess 
you have taken that for action?
    Mr. Wilson. Yes, sir, Mr. Cravaack. We have already been in 
active engagement, that other agency, to ensure that the 
information that they collect on the students that they are 
endorsing is shared with TSA--training.
    So what you will see is in the next month or so is that 
that particular issue has been addressed and the mitigation 
plans are underway.
    Mr. Cravaack. With this other agency, are you finding 
compliance and cooperation?
    Mr. Wilson. Yes, sir, we are.
    Mr. Cravaack. Okay. Excellent. That is what we need to 
hear. Now, Mr. Wilson, do you go back, and do you go ahead and 
you--I think you said the percentage was 96 percent. You go 
back, and you ensure that there is some type of audit being 
done, that there is no one slipping through the cracks. Would 
that be a correct statement?
    Mr. Wilson. That is correct, sir. In 2011--well, let me go 
back first. We normally implement one comprehensive inspection 
per year for our 7,000 flight-training providers.
    In 2011, we actually inspected each flight-training 
provider twice with the 96 percent compliance rate, and 4 
percent of non-compliance rate. We talk about non-compliance, 
we are talking about administrative issues, not something very 
egregious.
    Mr. Cravaack. Okay. That was the last time you did, in 
2007. Are you planning to do it again, or are you doing 
annually, or----
    Mr. Wilson. I am sorry, sir. Say it again?
    Mr. Cravaack. You said in 2007----
    Mr. Wilson. No, sir, 2011, we actually----
    Mr. Cravaack. 2011.
    Mr. Wilson. Yes, sir. 2011, we conducted two inspections 
per flight-training provider.
    Mr. Cravaack. Sorry, I am a half-deaf helicopter pilot. Mr. 
Lord, on page 27 of the report, you say that the TSA has only 
afforded the same level of access to FBI databases that a 
private company doing a background check would be.
    In your report, you say that the FBI and the TSA were 
collaborating on options, but had not identified the extent 
which the potential security risk may exist under the current 
process, and the cost of benefits pursuing alternate--
alternatives to provide additional access.
    What is the likelihood in your opinion of allowing a 
terrorist in, because the TSA is not having a higher level 
access to the FBI systems?
    Mr. Lord. That is difficult to answer directly. But we 
studied this issue in great detail. I should mention it is not 
unique to the Alien Flight School Program. It is a Government-
wide issue.
    TSA has limited access to the FBI database because they are 
considered a non-criminal justice agency, and the searches they 
are running are considered for non-criminal-justice purposes.
    So we, in our prior report, we recommended TSA and FBI get 
together to explore options for giving them greater access. If 
you do a criminal history records check, there is a lot of 
information, especially at the State and local level, that they 
don't have visibility over.
    So we think that would improve their vetting process. But 
again, it is a Government-wide issue, and TSA's constraint on 
multiple fronts in running criminal-history records checks 
because of this.
    Mr. Cravaack. Okay. Thank you very much, Mr. Lord, Mr. 
Wilson. My time is expired. I yield back.
    Mr. Rogers. I thank the gentleman. Chairman now recognizes 
Ranking Member, Mr. Thompson. Mr. Thompson, you have 5 minutes.
    Mr. Thompson. Thank you very much. Mr. Chairman, I would 
like to have my written statement entered into the record.
    [The statement of Mr. Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 18, 2012
    The issue of General Aviation security has long been of great 
interest to the Democratic Members of this committee. I am pleased the 
subcommittee is turning its attention to this issue today. At the 
outset, I would like to thank all of the witnesses for appearing before 
the subcommittee today.
    In particular, I would like to thank the Government Accountability 
Office for their diligent work on the report on general aviation 
security they are releasing today. GAO undertook this report as a 
result of a joint request by both the Chair and the Ranking Members of 
the full committee and the subcommittee. We made the request because of 
our shared interests in identifying areas where TSA's policies 
affecting a large segment of the aviation community are working and 
need increased attention.
    Before focusing on the challenges highlighted by the report, I 
would like to commend TSA for enhancing its collaboration with the 
general aviation community. In passing legislation that I introduced 
this Congress to statutorily authorize the Aviation Security Advisory 
Committee, this Congress has indicated its desire that TSA and the 
General Aviation industry cooperate to improve the security of the 
General Aviation sector.
    I look forward to hearing from both TSA and the stakeholders before 
us today on how increased collaboration has and will continue to 
enhance security. Turning to the challenges identified by GAO, TSA must 
answer for its shortfalls in identifying whether non-U.S. citizens 
obtaining flight training represent a threat.
    We cannot allow loopholes exploited by the 9/11 hijackers to be 
exploited again. However, we cannot ignore that violent domestic 
extremists can also pose a threat to our aviation security.
    The last individual to fly a plane into a building and kill 
innocent civilians in this country was not a foreign national or 
``Islamist extremist,'' it was a United States citizen with an 
extremist and violent ideology regarding the Internal Revenue Service.
    I look forward to hearing from TSA about the measures they have 
employed to ensure that such a scenario does not occur again and our 
current capacity to identify persons who may pose a threat.

    Mr. Thompson. Thank you, gentlemen, for your testimony this 
morning. One of the concerns I have is between TSA and ICE's 
coordination role. Are we to understand that there exists a 
memorandum of agreement between the two agencies to coordinate? 
Mr. Wilson.
    Mr. Wilson. Chairman Thompson, that is correct, sir. We 
have a memorandum of agreement in place, where we are sharing 
information with ICE, as well as ICE is sharing information 
with us.
    Mr. Thompson. Mr. Woods, is that your testimony, too?
    Mr. Woods. We do share information under the information-
sharing agreements, all through DHS. I am not aware of an 
incident of our specific memorandum. We do share information on 
a regular basis.
    Mr. Thompson. Mr. Lord, were you able to get a copy of that 
agreement?
    Mr. Lord. I notice, there appears to be some confusion on 
what the nature of this agreement is. Is it in fact an MOU, or 
does it take up some other form? But this again, we have a copy 
of the MOU between TSA and FAA. Whatever this other agreement 
is, we were just alerted to this yesterday in fact.
    So we are going to follow up on this. I would like to know 
a little bit more about it. Is it an MOU, or does it take some 
other form? What are they going to do with the information once 
they get it? I think that is just as important, if not more 
important.
    Mr. Thompson. So you see from a policy perspective, if we 
are trying to create a law that makes sense, at least the 
agencies who are tasked with the responsibility. One says yes. 
One says maybe. Another says, ``Well, I just heard about it 
yesterday.''
    You know, training goes on every day. So we have a problem. 
In addition to that, Mr. Wilson, can you provide me with the 
copy of whatever agreement you reference?
    Mr. Wilson. Yes, sir. I will get that to you today.
    Mr. Thompson. Mr. Woods, can you provide the committee with 
whatever agreements that you understand we operate under----
    Mr. Woods. Absolutely.
    Mr. Thompson [continuing]. With respect to this? Now, Mr. 
Wilson, would a U.S. citizen on the no-fly list be able to 
obtain flight training without undergoing a security threat 
assessment?
    Mr. Wilson. Mr. Thompson, that is correct. But keep in 
mind, the way the program is set up, there are--there is 
layered security put in place. You are right.
    Initially, a U.S. citizen who is on the no-fly list could 
commence flight training. But once the individual receives a 
flight certificate, an FAA certificate, that individual is 
bounced against the various databases as well, perpetually 
vetted, meaning that individual was vetted once a day, once a 
week.
    Mr. Thompson. Well, I guess my concern is, the last time we 
had somebody do something wrong, it was a U.S. citizen who flew 
into an Internal Revenue building in Texas a couple years ago.
    But if we train them, and the only thing we don't do is 
provide a license, then we have created a problem at that 
moment. I don't think somebody who wants to do harm is going to 
not do harm because they don't have a license. We have trained 
them to do it. That is my concern.
    If flight training is the public policy question for this 
committee, why do we have a policy for training U.S. citizens, 
and a policy for training non-U.S. citizens, and the same 
schools are training the same people? Mr. Lord, you want to try 
that?
    Mr. Lord. I think you are raising a good policy question. I 
am just an auditor, and that is probably best left to Congress 
to decide, whether the scope of the program should be expanded.
    Mr. Wilson is correct. If you are a U.S. citizen, you are 
not subject to this Alien Flight School vetting process. It 
is--that is----
    Mr. Thompson. The point is, is that we could--the last time 
we had an incident since 9/11 using an airplane, it was a U.S. 
citizen. I think if we are going to look at one segment of the 
threat, let's look at the entire segment of the threat, and see 
if we can fix the whole threat. That is the public policy 
question.
    Mr. Lord. Yes. This question as to what extent do you want 
to vet people against a terrorist watch list, regardless if 
they are a U.S. or not, I think that is a question you are 
answering.
    Under the current process described by Mr. Wilson, once you 
get an airman certificate, once you learn to fly, get a pilot's 
license, you are perpetually vetted. But in some respects, that 
may be too late. The person has already learned to fly an 
aircraft.
    So if I hear you correctly, you are suggesting they move 
that vetting process up earlier. But again, there would be some 
administrative regulatory costs, I am sure, are associated----
    Mr. Thompson. I just think the reasonable approach is to 
say you can apply for the training. But until you are vetted, 
you don't receive the training. Now, I don't understand how 
difficult that is. I mean, how much would that cost?
    Mr. Lord. I don't have that information. Perhaps Mr. Wilson 
would have some more information on this.
    Mr. Thompson. I yield back, Mr. Chairman.
    Mr. Rogers. It is mind-blowing. Mr. Walberg is recognized 
for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Thanks to the 
witnesses to be here today with us.
    Mr. Hennig, what responsibilities do flight-school 
operators, instructors, have in reducing security 
vulnerabilities?
    Mr. Hennig. Well, the way that regulation is structured, 
there are really three. There is adherence-to-visa policy, 
which is going through ICE. There is adherence to the Alien 
Flight Student Program specifically on the vetting of any 
foreign nationals taking training. Then of course, there is 
also requirement of--it is part of the same rule, which is 
focused on training the employees, so the flight school to be 
aware of security.
    This predates the ``See Something, Say Something,'' which 
is a big program here at DHS discussing today. But ever since 
this rule was put in place in 2004, every employee of that 
flight school is told to look for things that are suspicious.
    So within the flight-training community, we have one of the 
most involved training process, to just raise the awareness 
about things to look for.
    Mr. Walberg. Is there anything that Congress, TSA, ICE, 
FAA, any other Federal entities that are involved, could do to 
help the industry carry out these requirements and these 
responsibilities? I would ask Mr. Carr as well to respond to 
that.
    Mr. Hennig. Well, for our members, whatever rule we are 
talking about, give us a clear framework that we can comply 
with. As I discuss in my testimony, what we have struggled with 
over the past several years is that the rule was written very 
quickly. It was, you know, just a couple of years after 9/11 
and there was not enough time to really structure a good 
framework.
    Give us a clear framework for how to comply with TSA rules 
and ICE rules and the flight schools will do their utmost to do 
so. When you look at the GAO's recommendations specifically, 
what I see as a good benefit is the data flow, especially 
within agencies of the Department of Homeland Security. As 
industry, I hate duplicative activities.
    So if I am providing some data to ICE, if I am supplying 
some data to TSA, I am in the hope that they are sharing data 
with each other. So those kind of things between the clear 
regulatory framework and then the Government just working with 
itself to share any data because we don't see that obviously as 
industry.
    Mr. Walberg. You are not certain that they are sharing 
this. That is my common concern.
    Mr. Hennig. My understanding of the briefing on the GAO 
report that I have received is that one of the shortfalls, at 
least a few years ago, was the data sharing about visa status 
between ICE and the TSA.
    Mr. Walberg. Mr. Carr, additional?
    Mr. Carr. I would like to support what Mr. Hennig has 
mentioned in terms of greater clarity in terms of the 
requirements that flight schools are required to comply with.
    As is common across Government, when it comes to regulatory 
guidance and compliance, better guidance, better clarity from 
the Government on exactly what is required to not only comply 
with the rule, but to then show compliance has always aided the 
private industry in ensuring that not only are we meeting our 
requirements to comply with the rule in letter but also in 
spirit, so that when we are faced with an audit or an 
inspection, it is pretty clear to demonstrate that I either am 
or am not meeting the requirements.
    Mr. Walberg. In your organization's view, how effective is 
the AFSP program? How effective is it working for you?
    Mr. Hennig. Especially in the past several years, it has 
gotten a lot better. Our--one of the biggest problems early on 
was the timeliness of the vets. These are businesses trying to 
compete for contracts to train pilots. Early on, we were--we 
were signing up contracts. We were scheduling training times, 
and we would be--we would be bringing people over here and put 
them up in a hotel down in Florida waiting for the TSA vet.
    That has changed drastically. TSA is doing a great job 
lately. For the vast majority of vets that we are looking to 
have done on foreign nationals arriving in the United States, 
it is done within 24 to 48 hours. It is predictable, and that 
is very useful for our members.
    Mr. Walberg. It is predictable, but you said the vast 
majority. Why aren't--why isn't it the majority? Why isn't it 
the full majority?
    Mr. Hennig. It is actually the system working the way it is 
supposed to. The vast majority of the people who are not in any 
way a concern to the TSA or others are cleared within 24 to 48 
hours. The person that requires some additional attention 
experiences longer times. It may be a name that is very similar 
to another name. It may be something else that raises a 
concern.
    So from the framework of how the system should work, I 
think where the TSA has gotten us, where 24 to 48 hours for 
most people and then if there is attention maybe a few more 
days, it is predictable and we know what to expect.
    Mr. Carr. If I could add to Mr. Hennig's statement, the 
notion that coming to the United States to receive your flight 
training because it is so good is I think something very 
positive. We should look to the U.S. flight training industry. 
It is significant. It is very robust, and the world looks to us 
to train pilots.
    The improvements that TSA has made over the past several 
years in the program I think have changed a trend where we have 
flight training going elsewhere, going to other countries where 
this kind of program is not in place. These improvements are 
really helping to restore the United States to its preeminence 
as the world's leader in flight training.
    The--the vast majority of people that are coming to the 
United States do not pose the kinds of threats that I believe 
we are concerned about. However, where they do, the program 
absolutely is effective in at least raising that awareness.
    But I think what we have seen with GAO is that there are 
lots of opportunities for improvement, and we definitely want 
to work with TSA to help close those loopholes so we are not 
exploited and the flight schools aren't exploited in doing 
something they shouldn't be.
    Mr. Walberg. Okay. Thank you. I see my time is expired.
    Mr. Rogers. I thank the gentleman. The Chairman now 
recognizes Mr. Lungren from California for 5 minutes of 
questions.
    Mr. Lungren. Thank you very much, Mr. Chairman. Mr. Carr, I 
think you made a good point. We are preeminent in the world, or 
have been, in terms of flight training. Might have something to 
do that manned flight started here, and hopefully we keep that 
up. If I am flying on a foreign carrier, I would certainly feel 
better about it in most cases if a pilot was trained under our 
standards. I think we ought not to lose sight of that.
    Let me ask you this: There has been raised the question of 
doing checks on American citizens, American residents, as well 
as aliens. Mr. Hennig, Mr. Carr, do you see any problem with 
that?
    Mr. Carr. Let me offer maybe just some perspectives, in 
that the applications that are required to be completed to 
begin your flight training process, which often begins with an 
FAA airman medical certificate and then follow on your FAA 
pilot certificate, there is a lot of information that is 
required in those applications that I think give the Government 
access to other sources of data that would allow a realistic 
assessment of the threat posed by an individual.
    The data that is available to non-U.S. citizens is, in our 
view, a little harder to get. The U.S. Government doesn't 
always have access to the same data sets for foreign citizens 
that they for U.S. citizens. I think that is where the vetting 
process has real value to bring that visibility to non-U.S. 
citizens who are training in the United States where, for our 
own citizens, we have hopefully a better data set that we can 
make some realistic determinations with.
    Mr. Hennig. I think there is a risk approach that lends 
itself to this. About 1 in 20 people trained are holding an FAA 
airman certificated as a foreign national. If we were to expand 
that to U.S. citizens as well, TSA would have to expand its 
resources by 20 times. I have certainly appreciated the focus 
of TSA to, so to say, reduce the size of the haystack. It is 
terminology we often hear from the administrator.
    So if we want to look at a broader scope, as long as risk 
and especially data sharing of what already exists within the 
FAA and what already exists within other agencies about these 
individuals, maybe the first step to explore before you expand 
the program by orders of magnitude.
    Mr. Lungren. Would it make sense to you or would it seem 
logical or illogical to you that we might look at the no-fly 
list for those people who are wanting to become pilots?
    Mr. Hennig. When we look at other TSA programs that have 
supplied to general aviation, the vetting that those pilots who 
are flying those types of aircraft, we are talking about 
regulated programs that are already in place, some of them 
established by Congress, the no-fly list is certainly one of 
the vets that the person goes through specifically, but it is 
also criminal history, record check, and other things that are 
subject to those pilots.
    But again, in those cases it is based on what the pilot is 
able to fly, so there is a risk discussion about what actually 
the threat and the consequences would be from the event.
    Mr. Lungren. Mr. Carr, you mention in your written 
testimony that we could have some better operations of the 
program that currently exists, the AFSP program, and you say 
that assigning a security clearance to an individual is not a 
training event. Can you tell us exactly what you mean by that?
    Mr. Carr. Certainly. As Mr. Hennig mentioned earlier in his 
testimony, and one which we completely agree with, today's 
process for vetting is triggered any time a candidate presents 
themselves for training, regardless of how many times that 
candidate comes for training.
    Aviation--the aviation industry requires a lot of regular 
training and checking to ensure compliance with the 
regulations. Our view is that repetitive training cycles should 
not necessarily be the focus of the vetting. The individual 
should be the focus of the vetting.
    If we are able to develop a construct that allows an 
individual to be vetted once and allow that clearance to be 
valid for a period of time, perhaps as much as 5 years, that 
would allow the individual to return to training as often as is 
needed without involving duplicative additional processes that 
are technically the same.
    Mr. Lungren. What if the training is of a higher level? 
Would not it be good information for the vetting agency to know 
that someone who may have just started out at one level of 
ability is now seeking another level?
    Mr. Hennig. What we have proposed is today you have four 
different types of vetting that the TSA makes the person 
subject to based on the size of the aircraft. The proposal, 
which we believe TSA has endorsed publicly, is for a single, 
standardized vet applying to everybody. Then, in combination 
with that, a reporting back to TSA when any type of training 
occurs. So we actually bring everybody up to the highest level 
of check, and then----
    Mr. Lungren. Then you would report each time they come for 
training and that would go to TSA. Then it would be on TSA's 
shoulders to utilize that information as we direct them or as 
they see fit in the program.
    Mr. Hennig. Yes, sir. We will comply with providing the 
data, and it is for them to do the appropriate checks on that 
individual.
    Mr. Lungren. Thank you very much. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The Chairman now 
recognizes Mr. Walsh of Illinois for 5 minutes.
    Mr. Walsh. Thank you, Mr. Chairman. Thank you, panel. 
Comment for me on whether this following statement is true: As 
things are today, a person who would not be allowed to board a 
commercial plane as a passenger, as policy is today would be 
allowed to receive training to fly that commercial plane. Mr. 
Carr, Mr. Wilson, let's start there. As things are today, a 
typical person who would not be allowed to board a plane as a 
passenger would be allowed to receive training to begin to fly 
that commercial plane.
    Mr. Wilson. Mr. Walsh, this is going back to the similar 
question that Mr. Thompson asked earlier about individual U.S. 
citizens who are considered no-flies is basically what you are 
talking about. Yes, in theory, yes, they would be allowed to 
conduct----
    Mr. Walsh. They would not be allowed to board a plane as a 
passenger.
    Mr. Wilson. Right. They would not be allowed to board an 
airplane as a passenger, but they could engage and enter flight 
training. Now keep in mind, when you talk about--you just said 
something about the individual being allowed to fly the same 
aircraft that he or she is being prevented from getting on. It 
takes a very long time for the individual to get to that type 
of rating.
    The individual will start off in a Category 1 status, which 
would mean that once they get their airman certificated under 
Cat 1, that individually is perpetually vetted. Once they 
receive that first certificate, they are perpetually vetted. It 
is going to take several hours before they work their way up to 
a multi-engine aircraft.
    Mr. Walsh. Right. It may take time, but they can't set--
that person couldn't set foot on that plane as a passenger, yet 
they can begin to receive training to fly that plane no matter 
how long it takes.
    Mr. Wilson. Correct. That is correct.
    Mr. Walsh. Does that make sense?
    Mr. Wilson. Well, as we said earlier, what you are posing 
is that we are looking--we should be looking at anyone and 
everyone that wants to take training regardless of their 
status, whether it is a U.S. citizen or it is an alien. As Mr. 
Hennig and Mr. Carr testified here, there may be some 
additional costs involved. There is something that we can look 
at, and I could take that back to our administrator, 
Administrator Pistole, and take a look at that. But we have to 
realize that we are going from a very larger population.
    Mr. Walsh. Mr. Woods, quick question on flight schools. 
Outside of that Boston-area flight school, have there been any 
other schools that ICE has investigated?
    Mr. Woods. Yes. We have investigated several other schools. 
We have investigated a school in California that was taking 
students that were lawfully brought--coming to take other 
flight-school training, and went to a different flight school 
for a cheaper price, unlawfully violating the status. So we do 
investigate flight schools as they come to our attention.
    Mr. Walsh. You have found some problems elsewhere?
    Mr. Woods. We do find some problems, yes.
    Mr. Walsh. Somewhat related, in the news this morning, a 
bipartisan group of Senators just released what they called a 
disturbing GAO report, revealing that hundreds of non-certified 
sham colleges and universities were awarding student visas to 
foreign nationals at an alarming rate.
    Of special concern to us was their finding that 167 of the 
434 U.S. flight schools were not accredited by the FAA, but 
they still awarded student visas like those given to two of the 
9/11 terrorists. Mr. Hennig and Mr. Carr, any comment on that?
    Mr. Hennig. I will take first stab at it. I think there 
is--if you look at the framework that we have for flight 
training in the United States, there are several different 
approaches to doing the training.
    In the mid 1990s, I believe it was, the FAA established 
requirements to become a flight school, so-called Part 141 or 
142. For decades before that, the FAA had established 
regulations to teach people how to fly. This is called Part 61.
    So the FAA doesn't go out and necessarily certify the 
latter schools. This may be individual persons that our flight 
instructor said do certain types of training. These may be 
businesses for whom the type of training they do, becoming an 
FAA-certified school doesn't make sense. They just comply with 
the regulations.
    At the same time, and I will lean on Mr. Woods here with 
respect to ICE, ICE has processes providing visa for the 
students, whether they are 141, 142, or 61. So there is the 
compliance with the rules. There is the difference between 
being a certified school versus something else.
    Mr. Walsh. Mr. Woods, quick comment.
    Mr. Woods. Yes. I am familiar with that GAO report that was 
released yesterday. ICE right now has certified 469 schools 
that are CFIT-certified to bring in students for flight 
training. Of those schools, 153 were a question of the GAO 
report. We have done a drill-down on that where we identify 
several of these schools lapsed their 141 certificate. It is 
apparently a very expensive process to maintain. They reverted 
back to a 61 certificate.
    Several schools utilized subcontractors in violation of 
their CFIT certification. They are under compliance review now. 
Additionally, we have identified some--several schools have 
completely closed, and no longer provide flight training as 
part of their curriculum, but there was still--due to that.
    So I don't think it is that alarming as the GAO report made 
it out to be. But at the same time, we are looking at it on a 
compliance level to ensure that schools that are certified to 
bring students in to fly do have their 141, 142 certificate.
    Mr. Walsh. Thank you. I see my time is expired. Thank you, 
Mr. Chairman.
    Mr. Rogers. I thank the gentleman. Chairman now recognizes 
himself for a second round of questions.
    I think it is fair to say, Mr. Wilson, that I am shocked to 
hear that somebody on the no-fly list can be approved for 
flight lessons in this country. I think the people watching 
this hearing are, too. You don't have to worry about bringing 
it to Mr. Pistole's attention. I am going to take care of that.
    Mr. Lord, prior to this report coming out, if the 9/11 
hijackers had applied to take flight training in the United 
States as they did in 2000, do you think they could have been 
approved for flight lessons?
    Mr. Lord. I am sorry. I couldn't hear you because of the 
door slamming. Sorry.
    Mr. Rogers. We will wait until they sit down. If the 9/11 
hijackers had applied--goodness gracious.
    If the 9/11 hijackers had applied for flight training, as 
they did in 2000, in this country today, or up until this 
report was released, do you think they would have been 
approved?
    Mr. Lord. That is a real difficult one to answer directly. 
We have a lot of questions about how to process as working, and 
whether or not they would have been--I am sorry, Mr. Chairman. 
There are a lot of unknowns right now. I just don't know.
    Mr. Rogers. What do you think, Mr. Woods?
    Mr. Woods. Based on the information I have, I would agree 
with Mr. Lord, that it would be difficult to make that 
determination. These individuals are checked for criminal 
history. They are checked to see if they are on the terrorist-
screening database, and checked for their immigration status.
    In those individuals that were trained prior to 9/11, if 
they fell into any of those categories in violation, they would 
not receive training today.
    Mr. Rogers. Mr. Wilson.
    Mr. Wilson. I piggyback on Mr. Woods' response. He is 
exactly correct. Before these individuals could start flight 
training, they would have to undergo the AFSP process, which 
would include a terrorist-screened database check, a TECS 
check, as well as a fingerprint base--records check.
    Mr. Rogers. If a foreign national goes to flight school 
part-time, does that person still have to be vetted? Mr. 
Wilson.
    Mr. Wilson. Thank you, Chairman Rogers. Chairman Rogers, 
regardless of whether they go part-time or full-time, before an 
individual can conduct flight training as an alien, the 
individual must undergo a security threat assessment.
    Mr. Rogers. So the standards are the same, whether they are 
part-time or full-time?
    Mr. Wilson. Whether you are part-time or full-time, sir. If 
you are starting training, you have to undergo that security 
threat assessment.
    Mr. Rogers. In your opinion, do you think more legislative 
or regulatory authority is--or changes are going to need to be 
made by us for you to be able to better do your job?
    Mr. Wilson. Well, it depends on the recommendations we are 
discussing. There was a particular recommendation by GAO that 
would require significant rule-making that TSA hasn't 
considered. We do need to talk about that in the very near 
future. Based on the technological concerns that we may have 
there, that is one.
    As far as our regulatory authority with the existing 
programs that we have now, we have pretty good authority in 
order to accomplish the necessary measures we need to in order 
to address the vulnerabilities identified. I think the panel 
here has recognized that we have been collaborating with them, 
ensuring that we are able to meet our 60-day notice to GAO.
    Mr. Rogers. Mr. Woods, do you agree that if the part-time 
student applies, has to go through the same vetting standards 
as a full-time student?
    Mr. Woods. Yes. I would think even our aviation partners, 
this is what they want--it is event-based. So every time they 
attend training, they have--whether it is part-time or full-
time----
    Mr. Rogers. I was informed by my staff that ICE had told my 
staff that it is 18 hours of training or less, they didn't have 
to be vetted. Is that not accurate?
    Mr. Woods. I don't think it is whether they do 18 hours or 
less. I think it is whether, if they are training, there is 
going to be a flight training, it has to go through AFSP. The 
18-hour rule pertains to their visa type, many times, what type 
of visa they are allowed to do training on.
    Mr. Rogers. Mr. Lord, you talked a little bit about this in 
your opening statement. What do you in your estimation view as 
a reasonable amount of time to give TSA and ICE to fully remedy 
these shortcomings?
    Mr. Lord. Well, there are a lot of questions here. They 
have discussed the new data they are going to be sharing. But 
again, they still haven't figured out why some of these 
individuals weren't vetted to begin with. Mr. Wilson keeps 
talking about the STA process, where they do the three checks.
    But as our report shows, you could be out of status on the 
immigration side of the house, yet successfully pass the TECS 
check. So we don't quite understand why the TECS check doesn't 
pick up these people in overstay status that ICE, you know, 
provided us data that clearly showed there was a conflict in 
the system.
    So there are some kinks in the system. It is going to take 
a while to figure out. I think 3 months is reasonable amount of 
time. We are not talking about a cutting-edge technology. A lot 
of it is just management attention and priority.
    Mr. Rogers. Great. My time is expired. The Chairman now 
recognizes Mr. Davis for 5 minutes.
    Mr. Davis. Thank you Mr. Chairman. Chairman, I would ask 
unanimous consent to switch times with the Ranking Member. He 
has an appointment he needs to keep.
    Mr. Rogers. Without objection, so ordered.
    Mr. Thompson. Thank the gentleman from Chicago for allowing 
me to ask the question. Mr. Woods, would you provide the 
committee with the statistics of people who have applied 
through your various programs for flight training, and a number 
who have been denied? Do you have those statistics available? 
Not Wilson.
    Mr. Wilson. I am sorry, sir. You said ``Woods.''
    Mr. Thompson. Yes, Woods.
    Mr. Woods. Well, first of all, it is Mr. Wilson's program 
that does the Alien Flight School Program. We have cooperated 
and vetted them for immigration purposes.
    Mr. Thompson. Yes. I am going to get to him.
    Mr. Woods. Very good. We have vetted 18,900 individuals at 
an Alien Flight School Program. Of those, 9,700 came up 
initially to automated databases to be in status, and lawfully 
here to take flight training.
    Nine thousand two hundred we had to drill down on, and look 
at--and do manual checks on. Of those--and I can go through all 
the numbers all the way down to how many were in compliance, 
how many had already departed the United States, all the way 
down to 30 cases, like I said, that we identified there were 
possible visa violators that needed to----
    Mr. Thompson. Went from 18,000 to----
    Mr. Woods. Thirty.
    Mr. Thompson. Thirty. They were denied?
    Mr. Woods. Those individuals are under investigation right 
now for overstaying their visa. This is going back through the 
database of people that have applied for----
    Mr. Thompson. Mr. Wilson, can you elaborate on the 
statistics that your department reflects?
    Mr. Wilson. Ranking Member Thompson, I do not have specific 
numbers in front of me. But we do have very few individuals 
that are denied flight training because of various issues; one 
of them being the immigration status. That is something we have 
worked out recently with ICE.
    Other issues may be information that has not been supplied 
to TSA, which we will put through in a vetting-process status, 
meaning that they haven't been cleared, and they haven't been 
denied.
    Mr. Thompson. All right. They haven't been cleared, haven't 
been denied. They can still receive training?
    Mr. Wilson. No, sir. They cannot begin training until they 
have----
    Mr. Thompson. Well, if they are ICE people, they--but in--
if they are American citizens, they can be.
    Mr. Wilson. Yes, sir. If they are U.S. citizens, they do 
not go through any track.
    Mr. Thompson. Right. Mr. Carr, on a public policy side, do 
you see any problems with vetting American citizens before the 
training commences on a no-fly list, or whatever?
    Mr. Wilson. Well, I guess, if we take a quick look at the 
history of this program, it quickly came into place after 9/11 
as part of the Aviation Transportation Security Act of 2001. 
The focus of that program was clearly on foreign citizens 
coming to the United States for training, which we identified 
as a source of problems on 9/11.
    I think, when we look at vetting U.S. citizens for flight 
training, we have--we would have to take a broader look. 
Because I think there are a number of training activities, 
beyond just flight training, where additional vetting might be 
viewed as valuable. I don't think flight training is a unique 
activity when we look at complex operating requirements.
    So while flight training has been viewed as one area that 
should possibly receive some additional scrutiny, I think there 
could be others as well that we should take a holistic look at 
and determine if there is really value in doing this check 
against U.S. citizens who are seeking to enjoy this type of 
privilege.
    Mr. Thompson. Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman. The Chairman recognizes 
Mr. Cravaack of Minnesota for 5 minutes.
    Mr. Cravaack. I think, in just listening to some of the 
conversation, I think everybody here wants to do the right 
thing. We want to make sure that a person doesn't step inside 
of an aircraft that has mal intentions.
    Also, they should be attending a ground school without 
having--with the same type of intentions. So those are just 
some of the comments in listening to what I have heard today.
    What I would like to just encourage everyone to do is to 
ensure that the end goal is not lost, in making sure that we 
protect the United States. We never want to have a Moussaoui 
being able to take flight training, being able to go to that 
extent and be able to fly an aircraft into a building. We never 
want that, and nobody on this panel wants that to occur as 
well.
    We also understand, coming from the commercial industry, we 
have a viable business in the United States in making sure that 
people without mal intent want to come to the United States to 
become one of the best pilots in the world.
    So I would just encourage everyone on this panel and, Mr. 
Wilson, unfortunately, a lot of it falls upon your shoulders, 
to ensure the safety of the general public in ensuring that no 
one, including those in the United States that never step in an 
aircraft--now--I remember taking, you know, there was some of 
what are the mental background that had to be taken a look at 
as well.
    We don't want to--we want to make sure that nobody flies 
into an IRS building who has mal intent, but we will never have 
100 percent security. That just won't happen. Somebody that is 
perfectly normal one day can flip because of whatever he or she 
are under.
    So my comment is just make sure that everybody here works 
very closely together in ensuring a common-sense solution to 
this problem, to ensure that we never, ever have a 9/11 again. 
With that, I yield back.
    Mr. Rogers. I thank the gentleman and I recognize Mr. Davis 
for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Woods, in your testimony, you described five actions 
TSA and ICE intend to take to mitigate vulnerabilities 
identified in the procedures and processes associated with the 
Alien Flight Student Program.
    Has a time table been established for the implementation of 
these action items?
    Mr. Woods. A time table has not been established, but we 
are--some of these items are already in effect that we are 
working on. We are working cooperatively, doing the alien 
checks of the TSA databases already. We are sharing our ICE 
data with them. We are working on sharing the CFIUS data with 
them in the near future. We are working already on their strike 
teams with doing the inspections.
    So some of these have already been implemented. We will 
continue to move forward on others.
    Mr. Davis. Thank you. Mr. Wilson, both of the stakeholders 
appearing before the committee today have praised TSA's 
interaction with the general aviation community over the past 2 
years. What is being done by your office to ensure that this 
progress will continue and is sustained?
    Mr. Wilson. Well, sir, in my current position--I assumed 
this position last year--I put together a plan for the next 3 
years to ensure that certain items have been addressed within 
the general aviation realm.
    Back in January 2012, I laid out my plan of action for the 
general aviation community. It included the Alien Flight 
Student Program. It included the large aircraft security 
program. It included the repair station role. It included South 
Capitol Street Heliport. It included the Maryland Three.
    It included a vetting process, an automated vetting process 
for general aviation aircraft operating within the Private 
Charter Standard Security Program and the Twelve Five Standard 
Security Program.
    So as you can see, that long laundry list that I put 
together will keep us busy for a very long time.
    One additional item that I did not mention was access to 
temporary flight restrictions by general aviation aircraft. We 
have done a tremendous lot of work with the industry, as well 
as our Federal partners, to allow increased access to these 
temporary flight restrictions in the last 24 months.
    Mr. Davis. Thank you very much.
    Mr. Woods, how confident are you that individuals out of 
status are not receiving flight training in the United States 
today?
    Mr. Woods. Well, with the new process TSA has in checking 
the automated arrivals and departure information system, ADIS, 
through US-VISIT, I feel much more comfortable that we are 
identifying those individuals on the front end that may be out 
of status before they take any training.
    Mr. Davis. Mr. Lord, do you believe that establishing the 
Aviation Security Advisory Committee and the General Aviation 
Working Group and statute, as Ranking Member Thompson's bill 
H.R. 1447 proposes--do you think this would help stabilize the 
relationship between TSA and the general aviation community?
    Mr. Lord. Personally, I think it is important to have a 
stable ASAC process, whether you do it through legislative 
means or not. Again, that is not my call. That is Congress' 
call. But, again, we were concerned about the lapse in 
observations, and now we are encouraged to see, you know, it is 
functioning again. It seems to be very active.
    But the particular way you establish it, I mean, obviously, 
that is something for Congress to consider, not us.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman. I have no further questions.
    Mr. Rogers. I thank the gentleman. The Chairman now 
recognizes Mr. Lungren for 5 minutes.
    Mr. Lungren. Just to follow up on Mr. Davis, I would ask 
Mr. Lord and Mr. Wilson and Mr. Woods, is there anything that 
has been suggested here about cooperation, about considering 
doing more vetting of non-aliens, Americans, or of the 
information that is allowed to be transferred among the various 
Government agencies, including the unnamed Government agency 
here?
    Is there anything that either--that any of the three of you 
would believe requires legislative authority?
    Mr. Wilson. Mr. Lungren, yes, sir, in regard to the vetting 
of U.S. citizens prior to them starting training, yes, I think 
that would require some type of mandate in order for them to be 
required to submit certain information prior to pilot training.
    Mr. Lungren. Mr. Woods.
    Mr. Woods. I would defer to Mr. Wilson on this, but I 
think----
    Mr. Lungren. I am not asking for the administration's 
position. What I am asking for is an answer to some of our 
questions here, there have been some suggestions about more 
action being taken and so forth, and I am just trying to find 
out whether that would require us to legislatively authorize it 
or mandate it or is that within the ambit of jurisdiction that 
is already allowed to the various of aspects of DHS?
    Mr. Woods. I am not clear if it is within TSA's authority 
to mandate U.S. citizens to be vetted for flight training. I am 
aware of the Alien Flight Training Program and I worked for 
Immigration Customs Enforcement so I am very familiar with the 
alien rules of taking flight training at any school in the 
United States.
    Mr. Lungren. Okay, well, there was one question that was 
brought up about the incongruity of having a no-fly list which 
would't allow somebody to get on a commercial aircraft but not 
being checked when they are beginning the training for learning 
how to pilot aircraft.
    I guess one of my questions is: If you could state it on 
the record, if you know, is the impediment--is there an 
impediment to that legislatively or is that something that 
could be considered by TSA in carrying out its responsibility 
as already authorized?
    Mr. Woods. Again, I would have to defer to----
    Mr. Lungren [continuing]. Mr. Wilson.
    Mr. Wilson. Sir, not off-hand whether our existing 
authorities are that broad.
    Mr. Lungren. But maybe you can get back to us on that.
    Mr. Wilson. Yes, sir, I will.
    Mr. Lungren. Mr. Lord.
    Mr. Lord. I would argue that ATSA provides TSA broad 
authority to do a number of things. So that is the question: 
Could they do that within the current legislative conferred by 
ATSA? It is a question the lawyers would probably answer for 
you.
    Mr. Lungren. We always blame it on the lawyers.
    [Laughter.]
    Mr. Lord. But they do have broad authority now to identify 
any individual posing a threat to the U.S. aviation systems, so 
perhaps.
    Mr. Lungren. Thank you very much.
    Thank you all for testifying. We appreciate the work that 
you are doing, the cooperation that you have exhibited and 
being forthright in your comments here with us at this 
subcommittee hearing today.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    A couple of things. Mr. Lord mentioned he thought 90 days 
was a reasonable amount of time for you all to be able to make 
these corrections. Mr. Wilson, do you agree with that?
    Mr. Wilson. Yes, sir, I concur.
    Mr. Rogers. Mr. Woods, do you agree with that time frame?
    Mr. Woods. I concur.
    Mr. Rogers. Great. Mr. Wilson or Mr. Woods, has there been 
a U.S. citizen on the no-fly list that has actually gone 
through training, to your knowledge?
    Mr. Wilson. Chairman Rogers, I am not aware of that, and I 
will have to get back with you on that, sir.
    Mr. Rogers. Mr. Woods.
    Mr. Woods. I am not aware of anyone.
    Mr. Rogers. All right. I do, Mr. Woods, want to point out 
that the staff still seems confused with what your Department 
has told us about the part-time students, so we want to get 
your question for the record, and if you could go back and 
check with the Department on this part-time status and see if 
there is any differential at all for somebody who may be in the 
country as a tourist, maybe, and once they get here decide they 
want training.
    Go ahead, Mr. Woods.
    Mr. Woods. As I said earlier, you brought up a strong 
point. A person that comes in as a tourist to take training 
incidental to their arrival as opposed to a person who comes as 
a student to the United States on a student visa, on an F-M 
visa, they are allowed to take a certain amount of training 
incidental----
    Mr. Rogers. Okay, so they can come in as a tourist and get 
training without being vetted?
    Mr. Woods. I think the thing that they are unvetted for is, 
when they are coming to the United States on a student visa or 
F or M visa. You are allowed to take a certain amount of 
training incidental.
    Mr. Rogers. Okay so they can't come in as a tourist and get 
training without being vetted?
    Mr. Woods. The thing that they are not vetted for is coming 
to the United States, but what the purpose of their visit is 
and we can take enforcement action against them for taking 
their training in violation of their status. What we would be 
looking for is clarification and legislation of who is allowed 
to take----
    Mr. Rogers. That goes back to Mr. Lungren's question. You 
may need some regulatory or legislative authority.
    Mr. Woods. Who is allowed to come to the United States and 
take training or under what visa class and categories? Whether 
it is a visitor, as a non-immigrant worker or whether it is as 
a student itself? Currently the interpretations are varied 
through the Federal agencies where you may have a visitor who 
can take on his visit to the United States to go to Disneyland, 
can take incidental training.
    Mr. Rogers. Okay. All right, well I want to thank the 
witnesses for, as Mr. Lungren said for a frank, eye-opening 
discussion here. I want to remind all of the witnesses that 
some of the Members of the committee that couldn't be present, 
may have questions and so we will leave the record open for 10 
days. I would ask you if there are any questions that are 
submitted to you, that you get those back to us in written form 
within that 10-day period of time. With that, this committee is 
adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

         Questions for Kerwin Wilson From Chairman Mike Rogers
    Question 1a. In your written statement, you indicate that TSA has 
moved forward with a new process to check active alien flight students 
against the US-VISIT ADIS database to identify whether an individual 
may have overstayed the terms of his or her admission and provide the 
results to ICE's CTCEU to take appropriate immigration enforcement 
action. However, as of July 18, ICE program officials characterized 
this information-sharing effort as being in the ``testing phase.''
    At what point in the AFSP process will TSA check ADIS?
    Answer. Response was not received at the time of publication.
    Question 1b. In addition to identifying whether an individual may 
have overstayed the terms of his/her admission, will the check of ADIS 
allow TSA to determine whether someone may have entered the country 
illegally (``entry without inspection'')? If not, what additional 
checks will TSA do to determine this?
    Answer. Response was not received at the time of publication.
    Question 1c. What controls has TSA put in place to ensure that 
information is provided to ICE for enforcement action?
    Answer. Response was not received at the time of publication.
    Question 2. As part of its compliance inspections of flight schools 
participating in AFSP, TSA inspectors check for documentation that the 
school received approval from TSA before training a foreign national. 
Yet GAO found instances where foreign nationals completed flight 
training without receiving approval from TSA.
    What specific actions has TSA taken to determine why TSA's 
inspections of flight school compliance with AFSP did not identify the 
problems GAO raised in its report (i.e., that foreign nationals could 
complete training at U.S. flight schools without applying to AFSP, or 
after their applications were denied or canceled in AFSP)?
    Answer. Response was not received at the time of publication.
    Question 3a. The February/March memorandum of understanding between 
FAA and TSA to share certain data on foreign pilots was signed by the 
TSA officials responsible for overseeing flight school compliance 
inspections, but not officials responsible for completing security 
threat assessments.
    Does this effort involve the TSA officials who are responsible for 
the AFSP security threat assessment process as well? If so, how?
    Answer. Response was not received at the time of publication.
    Question 3b. How do you think FAA and TSA can work more 
collaboratively to ensure that foreign nationals are being properly 
vetted by TSA before receiving flight training and an airman's 
certificate?
    Answer. Response was not received at the time of publication.
    Question 4a. FAA officials indicate that they began sending data to 
TSA in March.
    How, specifically, has TSA used the FAA data to help ensure that 
all foreign flight students have received the appropriate background 
checks?
    Answer. Response was not received at the time of publication.
    Question 4b. How many foreign nationals has TSA identified through 
this process that did not successfully complete AFSP security threat 
assessments? How many of those were required to complete AFSP security 
threat assessments?
    Answer. Response was not received at the time of publication.
    Question 4c. What specific actions has TSA taken to address any 
weaknesses identified through the data matching process?
    Answer. Response was not received at the time of publication.
    Question 5. Now that TSA is receiving data from FAA on foreign 
nationals with pilot's licenses, has TSA discovered any foreign 
nationals with commercial or airline transport pilot licenses who did 
not receive approval to begin training through AFSP? If so, what 
actions have TSA and FAA taken to resolve these issues?
    Answer. Response was not received at the time of publication.
    Question 6. Do TSA inspectors issue violations if a flight training 
school does not maintain the required documentation?
    Answer. Response was not received at the time of publication.
    Question 7a. Can you provide some examples of when a flight 
training provider would be deemed non-compliant and what penalties it 
could face?
    How often do you re-inspect a provider that has failed inspection?
    Answer. Response was not received at the time of publication.
    Question 7b. Have there been any instances where an applicant was 
denied by TSA because of the individual's country of origin? If so, 
which country(s)? Does TSA have a prohibited list of countries from 
which it will not accept students into AFSP?
    Answer. Response was not received at the time of publication.
         Questions for John P. Woods From Chairman Mike Rogers
    Question 1. If a foreign-national arrives in the United States on a 
student visa or F or M visa and then decides to enroll in a flight 
school part-time, does that person get vetted against terrorist watch 
databases? Do you think there needs to be clarification throughout the 
Federal Government of what type(s) of visa allows for an individual to 
take flight training?
    Answer. Response was not received at the time of publication.
    Question 2a. In May 2011, TSA provided ICE with the identification 
of 142 potential overstays that were in TSA's AFSP database. After 
further vetting ICE reduced the list of possible overstays to 22.
    Can you share the results of the investigations?
    Answer. Response was not received at the time of publication.
    Question 2b. How many of the 22 individuals had completed flight 
training when you began your investigation?
    Answer. Response was not received at the time of publication.
    Question 2c. Were any of the foreign nationals deported?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
